                                SENSITIVE BUT UNCLASSIFIED




                        UNITED STATES DEPARTMENT OF STATE
                    AND THE BROADCASTING BOARD OF GOVERNORS
                                 OFFICE OF INSPECTOR GENERAL


          AUD-IT-13-15                        Office of Audits                     November 2012




         Audit of International Boundary
              and Water Commission,
       United States and Mexico, U.S. Section,
           Information Security Program


IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State
or the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior
authorization by the Inspector General. Public availability of the document will be determined by the Inspector
General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or
administrative penalties.




                                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



(U) Acronyms
(U) CM         configuration management
(U) FISMA      Federal Information Security Management Act
(U) GIS        Geographic Information System
(U) GSS        General Support System
(U) IBWC       United States Section, International Boundary and Water Commission
(U) IMD        Information Management Division
(U) IT         information technology
(U) NIST       National Institute of Standards and Technology
(U) OIG        Office of Inspector General
(U) OMB        Office of Management and Budget
(U) POA&M      Plan of Action and Milestones
(U) SCADA      Supervisory Control and Data Acquisition
(U) SP         Special Publication




                     SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


                                                    (U) Table of Contents
(U) Section                                                                                                                          (U) Page

(U) Executive Summary ..................................................................................................................1

(U) Background…. ..........................................................................................................................7

(U) Objective ..................................................................................................................................9

(U) Audit Results ..........................................................................................................................9
      A. (U) System Inventory .....................................................................................................9
      B. (U) Risk Management Program ...................................................................................10
      C. (U) Configuration Management ...................................................................................13
      D. (U) Incident Response and Reporting ..........................................................................15
      E. (U) Security Training ...................................................................................................16
      F. (U) Plan of Action and Milestones ...............................................................................19
      G. (U) Remote Access ......................................................................................................21
      H. (U) Identity and Access Management ..........................................................................23
      I. (U) Continuous Monitoring ..........................................................................................26
      J. (U) Contingency Planning ............................................................................................29
      K. (U) Oversight of Contractor System ............................................................................31
      L. (U) Security Capital Planning ......................................................................................33
      M. (U) Personnel Security .................................................................................................34
      N. (U) Physical and Environmental Protection.................................................................36

(U) List of Recommendations........................................................................................................44

(U) Appendices
      A. (U) Objective, Scope, and Methodology ......................................................................48
      B. (U) Office of Inspector General FY 2011 Federal Information Security Management
      Act Report Statuses of Recommendations .........................................................................50
      C. (SBU) International Boundary and Water Commission Management Response .........55

(U) Major Contributors to This Report ..........................................................................................66




                                           SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                      (U) Executive Summary
        (U) In accordance with the Federal Information Security Management Act of 2002, 1
(FISMA) the Department of State, Office of Inspector General (OIG), conducted an audit of the
U.S. Section, International Boundary and Water Commission (IBWC), information security
program and practices to determine compliance with Federal laws, regulations, and standards
established by FISMA, the Office of Management and Budget (OMB), and the National Institute
of Standards and Technology (NIST). In addition, OIG reviewed remedial actions taken by
IBWC to address control weaknesses identified in OIG’s FY 2011 report Evaluation of the
United States Section, International Boundary and Water Commission, Information Security
Program (AUD/IT-12-16, November 2011). IBWC took corrective actions on four of 21
recommendations in the FY 2011 report, and OIG considers the recommendations closed. The
statuses of the remaining recommendations from OIG’s FY 2011 report are presented in
Appendix B.

        (U) OIG reviewed systems at IBWC’s U.S. Section headquarters in El Paso, TX; field
offices in San Diego, CA, Yuma, AZ, and Fort Hancock, TX; and continuity of operations site at
Las Cruces, NM. Overall, OIG found that IBWC had implemented an information security
program and had made some progress on previously identified weaknesses. However, OIG
identified security control weaknesses that, if exploited, could expose IBWC to security
breaches. Specifically, the weakened security controls could adversely affect the confidentiality,
integrity, and availability of IBWC information and information systems. To improve the
information security program and to bring the program into compliance with FISMA, OMB, and
NIST requirements, IBWC should address the following 14 security control weaknesses:

    A. (U) System Inventory

        (U) As reported by OIG for FY 2011, 2 IBWC’s inventory management process to update
        and manage its information technology (IT) assets should be improved. IBWC’s
        inventory of systems consists of four information systems: the General Support System
        (GSS), Geographic Information System (GIS), the Nogales Supervisory Control and Data
        Acquisition (SCADA) system in Arizona, and the San Diego SCADA system in
        California. IBWC performed an inventory of its hardware and systems during FY 2012;
        however, because an IBWC official was unaware of a requirement to update system
        inventory when hardware changes occurred, IBWC could not fully account for all IT
        assets. IBWC had not fully implemented the IBWC Information Technology System
        Inventory Guide procedures, which require a complete inventory annually. Without a full
        system inventory management process for all IT assets, IBWC may not have an accurate
        accounting of all related system interfaces or underlying support systems and may not be
        able to properly identify and mitigate security risks.



1
 (U) E-Government Act of 2002, Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
2
 (U) Evaluation of the United States Section, International Boundary and Water Commission, Information Security
Program (AUD/IT-12-16, Nov. 2011).

                                                       1

                                  SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


    B. (U) Risk Management Program

        (U) As reported by OIG for FY 2011, IBWC had not implemented a risk management
        framework or information security policies and procedures that describe the roles and
        responsibilities of key participants at the organization and system levels. IBWC had
        neither developed the enterprise architecture nor integrated the IT Strategic Plan into the
        budget process as part of the risk management program. Since the enterprise architecture
        and the strategic plan have not been considered in the risk management program, IBWC
        may not be requesting funding levels appropriate to the risk exposure. Without the
        implementation of the risk management strategy at the organizational level, the
        communication of operations at the system level and funding allocation could be
        negatively affected because plans have not been developed to deal with risk exposure.
        As such, management is not fully aware of the security vulnerabilities that exist.

        (SBU) At the information system level, IBWC had not completed the security assessment
        authorization package for any of the systems. (b) (5)                (b) (5) (b)(b)
                                                                                         (5)(5)


        (b) (5)




                     IBWC officials stated that IBWC was unaware of the requirement to
        complete the security assessments and authorization package for GIS. The requirement
        by NIST for updating GSS and the SCADA systems had not been completed because of
        the lack of available resources. Without a security assessment and authorization in place,
        IBWC’s risk management framework is weakened and IBWC does not have the ability to
        assess, address, and monitor information security risk.

    C. (U) Configuration Management

        (SBU) As reported by OIG for FY 2011, IBWC had not implemented effective
        configuration management (CM) standards and procedures for its IT environment.
        Although, IBWC had CM standards and procedures in place, IBWC had not implemented
        a change control process that involved the systematic proposal, justification,
        implementation, test and evaluation, review, and disposition of changes to the system,
        including upgrades and modifications. Without implemented procedures that govern the
        performance of the CM processes, IBWC will not be able to effectively manage the IT
        security program, which could lead to the introduction of security weaknesses and
        inconsistent performance.


3
 (U) NIST SP 800-37, rev.1, “Guide for Applying the Risk Management Framework to Federal Information
Systems,” Feb. 2010.

                                                     2

                                SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


    D. (U) Incident Response and Reporting

        (U) IBWC’s incident response and reporting did not fully comply with NIST SP 800-53,
        Revision 3. 4 Specifically, IBWC had not updated its incident response policy and
        procedures to reflect changes made to its reporting documentation. An IBWC official
        stated that the incident report template had been updated but had not been incorporated
        into the incident response and reporting procedures. Lack of an updated procedure may
        prevent IBWC from reporting security incidents to appropriate authorities.

    E. (U) Security Training

        (U) As reported by OIG for FY 2011, IBWC had not trained all employees and
        contractors as required by its security awareness training program. At the time of OIG’s
        fieldwork conducted in April 2012, IBWC employees had not completed their general
        security awareness training, and not all employees with significant security
        responsibilities had completed their specialized training. However, 5 months remained in
        the fiscal year during which IBWC could have satisfactorily fulfilled the training
        requirements. Although IBWC had acquired a security awareness training product in
        April 2012, an IBWC official stated that the product had not been implemented. Without
        the completion of initial and annual security awareness training, personnel may be
        unaware of new risks that may compromise the confidentiality, integrity, and availability
        of data. Employees with significant security responsibilities who are not properly trained
        create a risk for IBWC because they may present vulnerabilities or may cause security
        breaches.

    F. (U) Plan of Action and Milestones

        (SBU) As reported by OIG for FY 2011, IBWC had not fully implemented an effective
        Plan of Action & Milestone (POA&M) process. Although IBWC had made
        improvements in its POA&M process by including details of the estimated resource
        requirements and corrective action plans to close the POA&M deficiencies, as required in
        the OMB template, OIG determined that POA&Ms (1) did not include all vulnerabilities,
        (2) did not demonstrate that milestones were being effectively addressed to update the
        status of changes, and, (3) were not always reviewed by the Chief Information Officer.
        IBWC had not determined the security weaknesses for GIS and the SCADA systems
        because IBWC had not completed the necessary security documents identifying the
        security controls in place and those that required improvement. System security plans
        and an independent assessment (Security Test and Evaluation report) would identify the
        controls that are in place and those that are either missing or deficient (are not up to the
        standard required by Federal Information Processing Standards [FIPS] Publication 199 5
        levels of potential impact on organizations associated with the system). The absence of

4
  (U) NIST SP 800-53, rev. 3, “Recommended Security Controls for Federal Information Systems and
Organizations,” IR-1 through IR-8, Aug. 2009 (last updated May 2010).
5
  (U) FIPS 199, “Standards for Security Categorization of Federal Information and Information Systems,” Feb.
2004.

                                                        3

                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

          these security documents indicated to OIG that IBWC had not conducted the necessary
          testing of GIS and the SCADA systems; therefore, IBWC was unable to identify the
          weaknesses requiring remediation. Additionally, IBWC was conducting periodic security
          scans of GSS, but the weaknesses that were identified in those scans were also not being
          recorded in the POA&Ms. Without periodic updates and reviews of POA&M activities
          and/or completion of necessary security tests and evaluations, IBWC management may
          be unaware of the statuses of security vulnerabilities or of associated corrective actions.

      G. (U) Remote Access

          (SBU) As reported by OIG for FY 2011, IBWC had not finalized and implemented its
          remote access policy and procedures to comply with the requirements in NIST SP 800-
          53, Revision 3. 6 (b) (5)
                                                                         An IBWC official stated
          that the access control policy and procedures document contained procedures for remote
          access, but OIG determined that the procedures still required review and formal approval
          by IBWC management. Further, an IBWC official stated that controls had not been fully
          implemented for remote access because of a lack of resources.

          (SBU) In addition, IBWC did not have a wireless policy and procedure in place
          for establishing usage restrictions and implementation guidance for wireless
          access, monitoring for unauthorized wireless access to the information
          system, authorizing wireless access to the information system prior to connection,
          or enforcing requirements for wireless connections to the information system. Without
          proper controls in place, unauthorized activities can occur without timely detection,
          which could adversely impact confidentiality, integrity, and availability of the data.

      H. (U) Identity and Access Management

          (SBU) IBWC had not implemented its identity and access management process.
          Although IBWC had an Identification and Authentication Policy and Procedure, the
          policy had not been reviewed and updated to reflect changes since 2009. OIG
          determined that the personal identity verification cards were configured to the network
          prior to any testing or assessment performed, as required by OMB Memorandum M-04-
          04. 7 However, a risk assessment identifying the risk to the system security had not been
          performed. An IBWC official stated that no formal risk assessment had been performed
          prior to the implementation of the personal identity verification card because IBWC was
          not aware that a requirement needed to be completed. Inadequate identity and access
          management controls increase the risk that accounts may be accessed and used by
          individuals to perform unauthorized activities.




6
    (U) NIST SP 800-53, rev. 3, AC-17 “Remote Access,” Aug. 2009 (last updated May 2010).
7
    (U) OMB Memorandum M-04-04, “E-Authentication Guidance for Federal Agencies,” Dec. 16, 2003.

                                                      4

                                  SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


I. (U) Continuous Monitoring

   (SBU) As reported by OIG for FY 2011, IBWC had not fully implemented a continuous
   monitoring program of its IT systems. During 2012, IBWC had assessed and installed a
   vulnerability management tool to perform automated routine security assessments of its
   system environment. However, IBWC manually initiated the vulnerability scans on its
   enterprise network because of configuration issues between the vulnerability
   management tool and the network. In addition, IBWC had not developed a formal
   process to include performing periodic vulnerability scans on its enterprise network,
   reviewing firewall logs, monitoring unauthorized devices, and, tracking centrally
   vulnerability results. An IBWC official stated that because of limited resources there
   were no documented policies and procedures detailing the strategy and plans for
   conducting continuous monitoring activities that included scanning routinely for
   vulnerabilities, monitoring logs, and notifying appropriate officials of unauthorized
   devices. Without periodic reviews or the performance of risk-based security assessments,
   new threats and vulnerabilities may not be identified and mitigated in a timely manner.

J. (U) Contingency Planning

   (SBU) As reported by OIG for FY 2011, significant improvements were needed to
   strengthen the IBWC contingency planning process. Although IBWC had documented a
   contingency plan for GSS and had configured an automated backup process for the
                                                                           (b) (5)
   headquarters and field offices, (b) (5)




K. (U) Oversight of Contractor System

   (U) As reported by OIG for FY 2011, IBWC had not implemented an effective oversight
   program of its contractor system. IBWC’s San Diego field office did not have
   documented policies and procedures for IBWC’s oversight of systems operated by
   contractors and did not include the SCADA operations within IBWC’s IT boundaries.
   An IBWC official stated that IBWC was aware of the deficiencies and was working to
   address the issues. OIG determined that IBWC officials did not have adequate control
   over the IT functions at the San Diego wastewater treatment plant or over the IT assets
   purchased and maintained by the contractor in support of operations. Without proper
   oversight, there is an increased risk that data collected, processed, and maintained could
   be exposed to unauthorized access, use, disclosure, disruption, modification, or
   destruction.




                                            5

                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


L. (U) Security Capital Planning

   (U) As reported by OIG for FY 2011, information security was not integrated into
   IBWC’s Capital Planning and Investment Control process. IBWC did not provide OMB
   with a detailed explanation for the major investment related to its IT capital investment.
   An IBWC official stated that because of the small size of the organization, IBWC
   officials believed IBWC budget requirements did not meet the level established for
   reporting to OMB. Lack of planning increases the risk that requests for funding
   investments will not receive proper consideration.

M. (U) Personnel Security

   (SBU) As reported by OIG for FY 2011, IBWC had developed its personnel security
   program but needed to continue making improvements to its implementation of the
   program because of weaknesses identified by OIG in FY 2011. OIG determined that
   overall progress had been made toward the implementation of an effective personnel
   security program. An IBWC official stated that the review process was still ongoing
   because of limited resources. However, without fully investigating each employee's
   background, followed by the adjudication process and subsequent clearance, the potential
   existed for IBWC to employ personnel who were not adequately qualified for selected
   positions. In addition, employees may be granted inappropriate administrator
   permissions to access IBWC information technology and physical assets.

N. (U) Physical and Environmental Protection

   (SBU) As reported by OIG for FY 2011, significant improvements were necessary for
   IBWC to strengthen its physical and environmental protection controls of organizational
   assets. Although IBWC had implemented a manual log process for IBWC San Diego
   contractors to account for the entry and exit of Mexican trucks through the international
   boundary gate (b) (5)



   (SBU) IBWC did not enforce physical access authorizations to the information system
   independent of the physical access controls for the facility. Although physical access
   controls were in place at the plant, (b) (5)




                                            6

                         SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

        (U) Based on fieldwork completed in 2012, OIG made 31 recommendations and
identified six significant security deficiencies requiring immediate attention as follows:

         •   (SBU) IBWC had not implemented a risk management framework or information
             security policies and procedures that describe the roles and responsibilities of key
             participants at the organization and system levels. (Finding B)
         •   (SBU) IBWC had not implemented effective CM standards and procedures for its IT
             environment. (Finding C)
         •   (U) IBWC had not fully implemented an effective POA&M process. (Finding F)
         •   (U) IBWC had not fully implemented a continuous monitoring program of its IT
             systems. (Finding I)
         •   (U) IBWC’s San Diego field office had not documented policies and procedures for
             oversight of its systems operated by contractors and did not include the SCADA
             systems operations within its IT boundaries. (Finding K)
         •   (SBU) IBWC had implemented a manual log process for IBWC San Diego
             contractors to monitor and track Mexican trucks moving through the international
             boundary gate, (b) (5)



      (U) In October 2012, OIG provided a draft of this report to IBWC. Based on IBWC’s
October 30, 2012, response to the report’s 31 recommendations, OIG considers all of the
recommendations resolved, pending further action.

       (U) IBWC’s responses to each recommendation and OIG’s replies to these responses are
presented after each recommendation. (IBWC’s response is in Appendix C.)

                                              (U) Background
       (U) IBWC is an international organization created in 1889 by the Governments of the
United States and Mexico to administer the boundary and water rights treaties and agreements
between the two countries.

        (U) The entity was created as the International Boundary Commission by the Convention
of 1889 8 and given its current name under the Treaty of 1944. 9 IBWC consists of the U. S.
Section and the Mexican Section, which have their headquarters in the adjoining cities of El
Paso, TX, and Ciudad Juárez, Chihuahua, respectively. Although IBWC is an independent
international entity, the U. S. Section takes direction from the Department of State on matters
related to foreign policy. The Mexican Section is a unit in the Mexican Ministry of Foreign
Affairs.

8
  (U) The Convention of March 1, 1889, was held to address the difficulties caused by natural changes that take
place in the beds of the Rio Grande and Colorado Rivers. U.S.-Mex., Mar. 1, 1889, 26 Stat. 1512 (extended
indefinitely by Article II of the treaty signed Feb. 3, 1944, 59 Stat. 1219).
9
  (U) Utilization of Waters of the Colorado and Tijuana Rivers and of the Rio Grande, U.S.-Mexico, art. II, Feb. 3,
1944, 59 Stat. 1219.

                                                         7

                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

        (U) Through a series of treaties and agreements, IBWC is charged with the application,
regulation, and exercise of the provisions of such treaties and agreements for the solution of
water and boundary issues along the 1,954-mile border between the two countries. The U. S.
Section of IBWC operates under the provisions of 22 U.S.C. 277. 10 The joint mission of the U.
S. Section and the Mexican Sections is as follows:

        •   (U) Distribute the waters of the boundary-rivers between the two countries.
        •   (U) Operate international flood control along the boundary-rivers.
        •   (U) Operate the international reservoirs for conservation and regulation of Rio
            Grande waters for the two countries.
        •   (U) Improve the quality of water of international rivers.
        •   (U) Resolve border sanitation issues.
        •   (U) Develop hydroelectric power.
        •   (U) Establish the boundary in the area limitrophe to (bordering) the Rio Grande.
        •   (U) Demarcate the land boundary.

    (U) The FISMA was enacted into law as Title III, Public Law Number 107-347 on December
17, 2002. Key requirements of FISMA are as follows:

        •   (U) The establishment of an agency-wide information security program to provide
            information security for the information and information systems that support the
            operations and assets of the agency, including those provided or managed by another
            agency, contractor, or other source.
        •   (U) An annual independent evaluation of the agency’s information security programs
            and practices.
        •   (U) An assessment of compliance with FISMA requirements.

        (U) FISMA recognized the importance of information security to the economic and
national security interests of the United States. As required by FISMA, each Federal agency
should develop, document, and implement an agency-wide program to provide information
security for the information systems that support the operations and assets of the agency,
including information and information systems provided or managed by another agency,
contractor, or source. Additionally, FISMA provides a comprehensive framework for
establishing and ensuring the effectiveness of management, operational, and technical controls
over IT that supports Federal operations and assets, and it provides a mechanism for improved
oversight of Federal agency information security programs.

        (U) The Act 11 assigns specific responsibilities to Federal agencies, NIST, OMB, and the
Department of Homeland Security 12 to strengthen information system security. In particular,
FISMA requires the head of each agency to implement policies and procedures to cost
effectively reduce IT security risks to an acceptable level. To ensure the adequacy and
10
   (U) 22 U.S.C. § 277, “International Boundary Commission, United States and Mexico; study of boundary waters.”
11
   (U) E-Government Act of 2002, Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
12
   (U) OMB Memorandum M-10-28, “Clarifying Cybersecurity Responsibilities and Activities of the Executive
Office of the President and the Department of Homeland Security (DHS), July 6, 2010.

                                                       8

                                  SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

effectiveness of information system controls, FISMA requires agency program officials, chief
information officers, chief information security officers, senior agency officials for privacy, and
inspectors general to conduct annual reviews of the agency’s information security program and
report the results to the Department of Homeland Security.

                                                  (U) Objective
        (U) The objective of this audit was to determine the effectiveness of IBWC information
security program and practices.

                                               (U) Audit Results
        (U) Overall, OIG found that IBWC had implemented an information security program;
however, OIG identified weaknesses that, if exploited, could significantly impact the information
security program controls and expose IBWC to security breaches. The weakened security
controls could also adversely affect the confidentiality, integrity, and availability of information
and information systems. To improve the information security program and to bring the program
into compliance with FISMA, OMB, and NIST requirements, OIG determined that IBWC should
address the 14 control weaknesses described.

A. (U) System Inventory
        (U) As reported by OIG for FY 2011, IBWC’s inventory management process to update
and manage its information technology (IT) assets needed to be improved. IBWC’s inventory of
systems consisted of four information systems: GSS, GIS, and the SCADA systems, which are
also known as Industrial Control Systems. GSS and GIS are operated at the IBWC headquarters
in El Paso, and the two SCADA systems are located in San Diego, and Nogales. IBWC had
performed an inventory of its hardware and systems during FY 2012; however, OIG found that
IBWC had not fully accounted for all IT assets. OIG determined that the IBWC inventory had
listed components associated only with GSS and GIS. OIG identified components in the server
room and in the wiring rooms of the first and third floors at the headquarters in El Paso, in the
field office in Fort Hancock, and at the site in Las Cruces, that were not recorded in the
inventory. In addition, OIG determined that IBWC had not included the SCADA systems
operated at the IBWC Nogales field office and the San Diego wastewater treatment plant in the
inventory listing.

        (U) FISMA requires the heads of each agency to develop and maintain an inventory of
major information systems operated by or under the agency’s control and to identify information
systems in an inventory. The inventory should, also include interfaces between each system and
other systems or networks not operated by or under the control of the agency. 13

        (U) IBWC officials stated that they were unaware of the FISMA requirement to update
the system inventory when hardware changes occurred. Without a full system inventory of IT

13
     (U) E-Government Act of 2002, Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).

                                                           9

                                     SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

assets, including the SCADA systems and changes to assets, IBWC did not have an accurate
accounting of all related system interfaces or underlying support systems and was not able to
properly identify and mitigate security risks. As a result, critical management processes such as
strategic planning, budgeting, system administration, patch management, and resource
management, could be adversely affected.

        (U) Recommendation 1. OIG recommends that the Chief Information Officer conduct
        an inventory to identify all information technology assets, including Supervisory Control
        and Data Acquisition systems for International Boundary and Water Commission.

        (U) Management Response: IBWC concurred with the recommendation, stating that its
        “Information Management Division (IMD) is implementing a comprehensive IT asset
        inventory to fully account for all IT assets” within the GSS (and Major application GIS),
        SBIWTP Veolia, SBIWTP SCADA, and Nogales SCADA.

        (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
        be closed when OIG reviews and approves documentation showing that IBWC has
        conducted a complete inventory of all IBWC IT assets.

        (U) Recommendation 2. OIG recommends that the Chief Information Officer conduct
        an annual inventory of information technology assets and update the full system
        inventory when changes are made to those information systems operated by or under the
        control of the International Boundary and Water Commission (IBWC) or by third-party
        contractors or agencies on behalf of IBWC, as required by the Federal Information
        Security Management Act.

        (U) Management Response: IBWC concurred with the recommendation, stating that
        “an IBWC System inventory was completed in 2012” and that it would “be conducting an
        annual inventory of all four systems in 2013.” IBWC further stated that the process for
        conducting these inventories was being developed.

        (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
        be closed when OIG reviews and approves documentation showing that IBWC has
        completed an annual inventory of all IBWC IT assets.

B. (U) Risk Management Program
       (U) As reported by OIG for FY 2011, IBWC had not implemented a risk management
framework to include information security policies and procedures that describe the roles and
responsibilities of key participants at the organization and system levels. OIG determined that
IBWC had not taken corrective actions to develop a risk management framework and did not
have a governance structure in place to determine whether IBWC had effectively managed
information security risk. As stated in NIST SP 800-37, Revision 1, 14 the risk management

14
  (U) NIST SP 800-37, rev.1, “Guide for Applying the Risk Management Framework to Federal Information
Systems” - 2.1 “Integrated Organization-Wide Risk Management,” Feb. 2010.

                                                    10

                                SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

framework is essential to IBWC because it addresses risk from an organizational perspective
with the development of a comprehensive governance structure and organization-wide risk
management strategy.

         (U) In addition, IBWC had not developed an IT strategic plan or enterprise architecture
that showed the IT goals for the organization or linked the strategic goals and objectives to the
defined business functions. An IBWC official stated that IBWC had planned to incorporate its
IT strategic plan funding requirements into the FY 2014 organizational budget request which is
under development and would include all IBWC IT security investments. NIST SP 800-37 15
states that it is essential to prioritize “missions and business processes with respect to the goals
and objectives of the organization.

        (U) Without the implementation of the risk management strategy at the organizational
level, operations at the system level could be negatively affected. Specifically, management may
be unaware of existing security vulnerabilities, and associated funding allocations may not be
adequately determined to address those vulnerabilities.

       (SBU) At the information system level, IBWC had not completed the Security
Assessment Authorization package as required by NIST SP 800-82 16 and NIST SP 800-53,
Revision 3 17 for any of its three systems. Specifically, OIG determined the following
weaknesses in the risk management program:

        •    (SBU) The GSS Authorization to Operate had expired, and no Authorization to
             Operate existed for GIS and the SCADA systems. An Authorization to Operate
             provides verification that an authorizing official has accepted identified risks with the
             systems. According to an IBWC official, all systems were in the production
             environment.
        •    (SBU) Risk assessments, as required by NIST SP 800-37, Revision 1, 18 had not been
             conducted for GSS, GIS, and the SCADA systems. However, site assessments for the
             SCADA systems were performed for Nogales and San Diego.
        •    (SBU) The GSS System Security Plan was being updated to reflect the changes that
             had occurred since the last System Security Plan was certified by the Chief
             Information Officer in April 2007. A System Security Plan had not been completed
             for GIS and the SCADA systems.
        •    (SBU) For all four systems, IBWC did not perform a Security Test and Evaluation,
             which is a security assessment report supporting the independent assessor’s
             evaluation of management, operational, and technical controls.


15
   (U) Ibid.
16
   (U) NIST SP 800-82, “Guide to Industrial Control Systems (ICS) Security,” sec. 6.1.1, “Security Assessment and
Authorization,” June 2011.
17
   (U) NIST SP 800-53, rev. 3: “CA-2 Security Assessments,” “CA-6 Security Authorization,” and “SA-11
Developer Security Testing,” Aug. 2009 (last updated May 2010).
18
   (U) NIST SP 800-37, rev.1, “Guide for Applying the Risk Management Framework to Federal Information
Systems,” sec. 3.5, “RMF Step 5 - Authorize Information System,” Feb. 2010.

                                                       11

                                  SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

        (U) IBWC had not effectively followed guidelines contained in NIST SP 800-37,
Revision 1, 19 for completion of the security assessment and authorization packages. An IBWC
official stated that IBWC was unaware of the NIST requirement to complete the security
assessments and authorization package for the GIS system. Further, the IBWC official stated
that the requirement for updating GSS and the SCADA systems had not been completed because
of a lack of available resources. Without a security assessment and authorization in place,
IBWC’s risk management framework has been weakened and IBWC does not have the ability to
assess, address, and monitor information security risk.

        (U) Recommendation 3. OIG recommends that the Chief Information Officer develop a
        risk management strategy, which includes the information technology strategic plan and
        the enterprise architecture at the organizational level, for assessing, addressing, and
        monitoring information security risks, as required by National Institute of Standards and
        Technology Special Publication 800-37, Revision 1.

        (U) Management Response: IBWC concurred with the recommendation, stating that a
        draft form of the risk management framework policy and procedure was available and
        that staff would internally review the draft by November 30, 2012.

        (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
        be closed when OIG reviews and approves documentation showing that IBWC has
        reviewed and approved the risk management framework policy and procedure.

        (U) Recommendation 4. OIG recommends that the Chief Information Officer complete
        the security documents and the testing of International Boundary and Water Commission
        information technology assets.

        (SBU) Management Response: IBWC agreed with the recommendation, stating that an
        updated System Security Plan for the GSS system was available for review and the
        System Architecture and Design Requirements documentation would be used to help
        create the System Security Plan required for GIS before it goes into full production.
        IBWC also stated that it was reviewing upgrades to the systems specified.

        (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
        be closed when OIG reviews and approves documentation showing that IBWC
        developed, tested, and obtained management approval of the security documents
        specified.

        (SBU) Recommendation 5. OIG recommends that the Chief Information Officer
        develop the security assessment and authorization packages for the Geographic
        Information System and Supervisory Control and Data Acquisition systems and update
        the security assessment and authorization package for the General Support System, as


19
 (U) NIST SP 800-53, rev. 3, “CA-2 Security Assessments, CA-6 Security Authorization, RA-3 Risk Assessment”
Aug. 2009 (last updated May 2010).

                                                    12

                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       required by National Institute of Standards and Technology Special Publication (NIST
       SP) 800-53, Revision 3 and NIST SP 800-82.

       (U) Management Response: IBWC concurred with the recommendation, stating that
       IMD would “develop the necessary security assessments and authorization packages for
       the GIS and SCADA systems and update the GSS authorization package as part of FY
       2013 priorities.”

       (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that IBWC
       developed, tested, and obtained management approval for the security documents as
       required.

       (U) Recommendation 6. OIG recommends that the Chief Information Officer improve
       existing procedures to ensure security assessment and authorization packages, system
       security plans, and security assessment reports are updated, as required by National
       Institute of Standards and Technology Special Publication (NIST SP) 800-37, Revision 1
       and NIST SP 800-53, Revision 3.

       (U) Management Response: IBWC concurred with the recommendation, stating that
       the risk management framework draft being reviewed “provides a specific time frame for
       the Assessment and Authorization (A&A) processes” and for “the regular update and
       acceptance of System Security plans and Security Assessments.”

       (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that IBWC has
       developed, tested, and obtained management approval of the security documents as
       required.

       (U) Recommendation 7. OIG recommends that the Chief Information Officer ensure
       that annual security assessments of a subset of a system’s security controls are conducted,
       as required by National Institute of Standards and Technology Special Publication 800-
       37, Revision 1.

       (U) Management Response: IBWC concurred with the recommendation, stating that it
       is conducting “a risk assessment and pen test” on its GSS system.

       (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
       can be closed when OIG reviews and approves documentation showing that IBWC has
       developed, tested, and obtained management approval of the security documents as
       required.

C. (U) Configuration Management
        (SBU) As reported by OIG for FY 2011, IBWC had not implemented effective CM
policy and procedures for its IT environment. Although IBWC had CM policy and procedures in


                                               13

                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

place, IBWC had not accounted for the patch management process to evaluate and approve
patches for application, installation, oversight, and review of the patch status on the systems.
OIG determined that responsibility for the implementation of configuration changes and updates
to the baseline configuration for the systems, operating systems, databases, network, and patch
installation was distributed among the various IT personnel without controls to ensure
compliance as required by NIST SP 800-53, Revision 3. 20 Specifically, OIG determined that
IBWC had not implemented a change control process that involves the systematic proposal,
justification, implementation, test, evaluation, review, and disposition of changes to the system,
including upgrades and modifications. Further, IBWC had not maintained control over all
hardware connected to its SCADA system at the San Diego wastewater treatment plant, which is
operated by contractors.

       (U) According to NIST SP 800-53, Revision 3, 21 “security controls are the management,
operational, and technical safeguards or countermeasures employed within an organizational
information system to protect the confidentiality, integrity, and availability of the system and its
information.”

       (U) This guidance states that organizations should develop and maintain a “formal,
documented configuration management policy that addresses purpose, scope, roles,
responsibilities, management commitment, coordination among organizational entities, and
compliance” with documented procedures for implementation of the policy that an organization
should review, approve, document, audit, and provide oversight for CM controls for information
systems.

       (U) NIST standards require that the organization report, test, and correct potential CM
problems, identifies, reports, and corrects information system flaws; and incorporates flaw
remediation into the organizational configuration management process. 22 NIST SP 800-40,
Version 2.0, states that remediation testing guidelines indicate that patches and configuration
modifications should be tested on non-production systems since remediation can easily produce
unintended consequences. 23
        (U) An IBWC official stated that CM policy and procedures were currently being
updated to include the patch management process. An IBWC official also stated that a test
environment did not exist for testing of configuration changes and patches. Without
implemented procedures that govern the performance of the CM process, IBWC may not be able
to effectively manage the IT security program, which could lead to the introduction of security
weaknesses and inconsistent performance.



20
   (U) NIST SP 800-53, rev. 3, CM-1 “Configuration Management Policy and Procedure,” CM-2 “Baseline
Configurations,” CM-3 “Configuration Change Control,” CM-4 “Security Impact Analysis,” and CM-5 “Access
Restrictions for Change” Aug. 2009 (last updated May 2010).
21
   (U) NIST SP 800-53, rev. 3, ch. 1, “Introduction,” Aug. 2009 (last updated May 2010).
22
   (U) NIST SP 800-53, rev. 3, SI-2 “Flaw Remediation” Aug. 2009 (last updated May 2010).
23
   (U) NIST SP 800-40, ver. 2.0, “Creating a Patch and Vulnerability Management Program,” sec. 2.6, “Testing
Remediations,” Nov. 2005.

                                                      14

                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        (U) Recommendation 8. OIG recommends the Chief Information Officer develop and
        implement configuration management and testing procedures including, but not limited
        to, patch management and periodic assessments of compliance with the implemented
        procedures, as required by National Institute of Standards and Technology (NIST)
        Special Publication (SP) 800-53, Revision 3, and NIST SP 800-40, Version 2.0.

        (U) Management Response: IBWC concurred with the recommendation, stating that
        “existing procedures for patch management” are being documented and tested for
        inclusion in the existing CM policy and procedure and that it expects an approved update
        to the existing CM policy by March 2013.

        (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
        be closed when OIG reviews and approves documentation showing that IBWC has
        developed and implemented configuration management and testing procedures as
        required.

        (U) Recommendation 9. OIG recommends that the Chief Information Officer develop
        and implement procedures for the oversight of all systems and hardware including, but
        not limited to, patch management and periodic assessments of compliance with
        implemented procedures that are part of the International Boundary and Water
        Commission operations, as required by National Institute of Standards and Technology
        Special Publication 800-53, Revision 3.

        (U) Management Response: IBWC concurred with the recommendation, stating that it
        would begin to develop similar CM policy and procedure for all systems that are part of
        the IBWC operations and expects to have draft policy in place by March 2013.

        (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
        be closed when OIG reviews and approves documentation showing that IBWC has
        developed and implemented procedures for the oversight of all systems and hardware as
        required.

D. (U) Incident Response and Reporting
       (U) OIG found that IBWC’s incident response and reporting did not fully comply with
provisions of NIST SP 800-53, Revision 3. 24 Specifically, IBWC had not updated its incident
response policy and procedure to reflect changes made to its reporting documentation.

        (U) NIST SP 800-53, Revision 3, 25 states:

        (U) The organization develops, disseminates, and reviews/updates [Assignment:
        organization defined frequency]:

24
  (U) NIST SP 800-53, rev. 3, IR-1 through IR-8, Aug. 2009 (last updated May 2010).
25
  (U) NIST SP 800-53, rev. 3, IR-1 “Incident Response Policy and Procedures.” Aug. 2009 (last updated May
2010).

                                                      15

                                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

               a. (U) A formal, documented incident response policy that addresses purpose,
                  scope, roles, responsibilities, management commitment, coordination among
                  organizational entities, and compliance; and
               b. (U) Formal, documented procedures to facilitate the implementation of the
                  incident response policy and associated incident response controls.

        (U) An IBWC official stated that the incident report template had been updated but that
the template had not been incorporated in the incident response and reporting procedures. The
lack of updated procedures may prevent IBWC from reporting security incidents to appropriate
authorities.

           (U) Recommendation 10. OIG recommends the Chief Information Officer incorporate
           the updated incident report template into the incident response and reporting procedures
           and periodically assess compliance with the procedures, as required by National Institute
           of Standards and Technology Special Publication 800-53, Revision 3.

           (U) Management Response: IBWC concurred with the recommendation, stating that an
           updated incident report template has been uploaded to the “existing draft Incident
           Response Policy & Procedures . . . being updated to the new directives format initiated by
           IBWC” and that the draft would be “completed, reviewed, and staffed by December 2012
           for re-approval by the Commissioner.”

           (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves documentation showing that IBWC has
           incorporated the updated incident report template into the incident response and reporting
           procedures and that it periodically assesses compliance with the procedures as required.

E. (U) Security Training
        (U) As reported by OIG for FY 2011, IBWC had not trained all employees and
contractors as required by its security awareness training program. IBWC developed a draft
security awareness training policy and procedures that included sanctions for employees who
failed to take and complete IT security awareness training. OIG determined that IBWC
employees had not completed the required security awareness training and that not all employees
with significant security responsibilities had completed their specialized training, as of April 27,
2012. When OIG completed on-site verification in April 2012, IBWC had not started its annual
training of employees and contractors. No IBWC employees or contractors had completed the
required annual training; however, at that time, 5 months remained in the fiscal year during
which IBWC staff could have completed the training. Although IBWC’s security awareness
training program required all personnel to complete annual security awareness training and users
with significant security responsibilities to complete specialized training, OIG determined that
IBWC did not require new employees to complete initial security awareness training prior to
accessing information systems, as required by NIST SP 800-53, Revision 3. 26


26
     (U) NIST SP 800-53, rev. 3, AT-2 “Security Awareness,” Aug. 2009 (last updated May 2010).

                                                        16

                                    SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

       (U) OMB Circular No. A-130 states “The Computer Security Act requires Federal
agencies to provide mandatory periodic training in computer security awareness and accepted
computer security practices for all employees who are involved with the management, use or
operation of a Federal computer system within or under the supervision of the Federal agency.” 27
Training ensures that all users are knowledgeable of the rules of the system. 28 Although IBWC
had acquired a security awareness training product in April 2012, an IBWC official stated that
the product had not been implemented because of the limited number of staff assigned to the
Information Management Division (IMD) to support the security training program. However,
IBWC officials stated that IBWC intends to administer security awareness training to all
employees, including those with significant security responsibilities by the end of the fiscal year.

        (U) Regarding the necessity for annual security training, NIST SP 800-50 29 states:

        (U) [A]t a minimum, the entire workforce should be exposed to awareness
        material annually. A continuous awareness program, using various methods of
        delivery throughout the year, can be very effective. Security training for groups
        of users with significant security responsibility (e.g., system and network
        administrators, managers, security officers) should be incorporated into ongoing
        functional training as needed.

         (U) NIST SP 800-53, Revision 3, 30 also supports training requirements and related
corrective actions: “The organization provides basic security awareness training to all
information system users (including managers, senior executives, and contractors) as part of
initial training for new users, when required by system changes and [Assignment: organization-
defined frequency] thereafter.” Further, NIST SP 800-53, Revision 3, 31 states, “[T]he
organization [should employ] a formal sanctions process for personnel failing to comply with
established information security policies and procedures.”

        (U) Without the completion of initial and annual security awareness training, personnel
may be unaware of risks that may compromise the confidentiality, integrity, and availability of
data. As a result, personnel may be unable to recognize and respond appropriately to security
concerns. Employees with significant security responsibilities who are not properly trained
create a risk for IBWC since they may introduce vulnerabilities because of their elevated level of
system permissions.

        (U) Recommendation 11. OIG recommends that the Chief Information Officer ensure
        the security awareness training policy requiring all International Boundary and Water
        Commission personnel to attend initial security awareness training is finalized and then

27
   (U) OMB Circular No. A-130, revised, “Management of Federal Information Resources,” app. III, “Security of
Federal Automated Information Resources.” – B. “Descriptive Information,” a. “General Support Systems,” 2.b
“Training.”
28
   (U) OMB Circular No. A-130, revised, A. “Requirements,” 3.a.2.b “Training.”
29
   (U) NIST SP 800-50, “Building an Information Technology Security Awareness and Training Program,” pg.20,
F/N 13, Oct. 2003.
30
   (U) NIST SP 800-53, rev. 3, AT-2 “Security Awareness,” Aug. 2009 (last updated May 2010).
31
   (U) NIST SP 800-53, rev. 3, PS-8 “Personnel Sanctions,” Aug. 2009 (last updated May 2010).

                                                      17

                                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

ensure that the personnel take the training before they are provided access to information
technology systems, as required by National Institute of Standards and Technology
Special Publication 800-53, Revision 3, and Office of Management and Budget Circular
No. A-130.

(U) Management Response: IBWC concurred with the recommendation, stating that
IMD had updated its existing Security Awareness Training policy and procedure to
include the requirements described and that the policy will be “reviewed, reformatted and
staffed for review and sent for approval by December 2013.”

(U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and approves documentation showing that IBWC has
ensured that the security awareness training policy described is finalized and that
personnel take the training before they are granted access to information technology
systems as required.

(U) Recommendation 12. OIG recommends that the Chief Information Officer ensure
all International Boundary and Water Commission personnel attend security awareness
refresher training and suspend access to information technology systems and assets when
personnel fail to successfully complete the training, as required by National Institute of
Standards and Technology Special Publication SP 800-53, Revision 3, and Office of
Management and Budget Circular No. A-130.

(SBU) Management Response: IBWC concurred with the recommendation, stating that
the draft Security Awareness Training policy and procedure “addresses disciplinary and
corrective action the IMD will be authorized to impose on personnel that do not comply
with this requirement.” IBWC also provided information on the status of personnel
enrolled in the training and stated that notifications had been issued to “non-compliant
employees and their supervisors” and that additional notification “would be issued for
noncompliance.”

(U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and approves documentation showing that IBWC has
ensured that all IBWC personnel attend security awareness refresher training and that
access to information technology systems and assets is suspended for personnel who do
not successfully complete the training as required.

(U) Recommendation 13. OIG recommends that the Chief Information Officer ensure
the specialized security training requirement for International Boundary and Water
Commission personnel with significant security responsibilities is completed so that the
personnel are able to maintain their professional proficiency, as required by National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

(SBU) Management Response: IBWC concurred with the recommendation, stating that
the updated policy and procedure “addresses this requirement and budgetary requirements



                                        18

                      SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

           to ensure the required training occurs” annually. IBWC further stated that all seven
           IBWC personnel with significant IT responsibilities have completed training.

           (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
           be closed when OIG reviews and approves documentation showing that IBWC has
           ensured that the specialized security training requirement has been met as required.

F. (U) Plan of Action and Milestones
        (SBU) As reported by OIG for FY 2011, IBWC had not fully implemented an effective
POA&M process. Since OIG’s last review, IBWC had made improvements in its POA&M
process by including details of the estimated resource requirements and corrective action plans to
close the POA&M deficiencies, as required in the OMB template. In addition, IBWC had used
the POA&M for developing, maintaining, and reporting the IBWC's planned actions for
identified weaknesses related to GSS. However, IBWC had not determined the security
weaknesses for GIS and the SCADA systems because IBWC had not completed the necessary
security documents identifying the security controls in place and those that require improvement.
System security plans and an independent assessment (Security Test and Evaluation report)
would identify the controls that were in place and those that were either missing or deficient
(were not up to the standard required by the FIPS 199 32 levels of potential impact on
organizations associated with the system). The absence of these security documents indicated
that IBWC had not conducted the necessary testing of GIS and the SCADA systems; therefore,
IBWC was unable to identify the weaknesses requiring remediation. Additionally, IBWC was
conducting periodic security scans of GSS, but the weaknesses identified in those scans were not
recorded in the POA&Ms. OIG identified the following deficiencies:

           •   (U) The POA&Ms were not properly updated and provided to the Chief Information
               Officer on a quarterly basis.
           •   (SBU) The POA&Ms did not include findings identified from GSS vulnerability scan
               assessments, as well as vulnerabilities associated with the SCADA systems identified
               from site assessments.
           •   (U) The POA&Ms did not include a specific corrective action plan for completing the
               security assessment and authorization package for GSS, GIS, and the Nogales
               SCADA system.
           •   (U) The documentation for the corrective action activities was not maintained.
           •   (U) The POA&Ms were not reviewed on a periodic basis to ensure updates were
               recorded. Specifically, OIG determined that the estimated completion dates had
               passed, that updates were not made to the estimated completion date, and that an
               explanation supporting the delay was not documented.

        (U) According to NIST SP 800-53, Revision 3, 33 “the organization updates existing plan
of action and milestones [Assignment: organization-defined frequency] based on the findings


32
     (U) FIPS 199, Feb. 2004.
33
     (U) NIST SP 800-53, rev. 3, CA-5 “Plan of Action and Milestones,” Aug. 2009 (last updated May 2010).

                                                        19

                                    SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

from security controls assessments, security impact analyses, and continuous monitoring
activities.”

        (U) NIST SP 800-53, Revision 3 34 also states that “The organization implements a
process for ensuring that plans of action and milestones for the security program and the
associated organizational information systems are maintained and document the remedial
information security actions to mitigate risk to organizational operations and assets, individuals,
other organizations, and the Nation.”

     (U) Elaborating further on the importance of thorough and effective POA&Ms, OMB
Memorandum M-08-21 35 states:

        (U) POA&Ms must include all security weaknesses found during any other review done
by, for, or on behalf of the agency, including [Government Accountability Office] audits,
financial system audits, and critical infrastructure vulnerability assessments. These plans should
be the authoritative agency-wide management tool, inclusive of all evaluations.

        (U) The implementation of a POA&M process is important to assess the current state of
the security posture of GSS, GIS, and the SCADA systems and to aid in oversight of IT
investments. IBWC conducted periodic security scans of GSS but had not accounted for the
identified weaknesses in the POA&M process, which could result in POA&Ms becoming out of
date. On the other hand, IBWC did not conduct any security scans or complete the security
documentation for GIS and the SCADA systems and, therefore, was unable to identify existing
vulnerabilities in the systems. Without inclusion of vulnerabilities and periodic updates of
POA&M activities, IBWC management may be unaware of weaknesses and the status of
corrective actions. As a result, delays in the implementation of corrective actions may not be
appropriately identified and resolved in a timely manner.

        (U) Recommendation 14. OIG recommends the Chief Information Officer fully
        implement a Plan of Action and Milestones process to include vulnerabilities identified
        from all sources and update milestone dates, as required by Office of Management and
        Budget Memorandum M-08-21 and NIST Special Publication 800-53, Revision 3.

        (SBU) Management Response: IBWC concurred with the recommendation, stating that
        it is using its POA&M process “to develop, maintain, and report the IMD work plan” and
        to track progress toward closing each entry. IBWC further stated that it has entered
        identified weaknesses and vulnerabilities into the POA&M database “so necessary
        resources and manpower are allocated to address each issue,” that “the recently
        discovered vulnerabilities” are being prioritized and scheduled for remediation, and that
        employees have been notified that regular update and maintenance of the database is now
        considered “a measurable performance element that will affect their annual performance
        ratings.”

34
 (U) NIST SP 800-53, rev. 3, PM-4 “Plan of Action and Milestones Process,” Aug. 2009 (last updated May 2010).
35
 (U) OMB Memorandum M-08-21, “FY 2008 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management,” July 14, 2008.

                                                     20

                                 SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

              (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
              can be closed when OIG reviews and approves documentation showing that IBWC has
              implemented a POA&M process, including vulnerabilities identified from all sources,
              and updated milestone dates as required.

      G. (U) Remote Access
              (U) As reported by OIG for FY 2011, IBWC had not finalized and implemented its
      remote access policy and procedure to comply with NIST requirements. An IBWC official
      stated that the access control policy and procedure document contains procedures for remote
      access, but OIG determined that the procedures still require review and formal approval by
      IBWC management. During fieldwork completed in 2012, OIG identified additional weaknesses
      in remote access and wireless devices.
(b) (5)




      36
         (U) OMB Memorandum M-06-16, “Protection of Sensitive Agency Information,” June 23, 2006.
      37
         (U) NIST SP 800-53, rev. 3, AC-17 “Remote Access,” Aug. 2009 (last updated May 2010).
      38
         (U) OMB Memorandum M-06-16.

                                                          21

                                      SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


   (U) Wireless Access Weaknesses

             (SBU) OIG determined that IBWC did not have a wireless policy and procedure in place
   (b) (5)                                                                                               (b) (5)




          (SBU) OIG identified that IBWC had one wireless access point that IBWC management
   had requested. An IBWC official stated that only portable devices configured by IMD could
   have connected to the wireless access point. IBWC configured and issued 11 iPads and two
   laptops for authorized use within the IMD office to connect to the wireless access point.
(b) (5)
                                                                  (b) (5)
(b) (5)
                                                                    OIG determined that IBWC had
   not periodically reviewed unauthorized access to the wireless network. NIST SP 800-53,
   Revision 3, 40 states:

             (U) The organization:
             (U) a.   Establishes usage restrictions and implementation guidance for wireless access;
             (U) b.   Monitors for unauthorized wireless access to the information system;
             (U) c.   Authorizes wireless access to the information system prior to connection; and
             (U) d.   Enforces requirements for wireless connections to the information system.
(b) (5)




           (U) Inadequate remote access controls increased the risk that accounts may have been
   accessed and used by individuals to perform unauthorized activities. Without proper controls in
   place, unauthorized activities could occur without timely detection, which could adversely
   impact confidentiality, integrity, and availability of the data.

             (U) Recommendation 15. OIG recommends that the Chief Information Officer finalize
             and implement International Boundary and Water Commission remote access policy and
             procedure, as required by National Institute of Standards and Technology Special
             Publication SP 800-53, Revision 3.

             (U) Management Response: IBWC concurred with the recommendation, stating that
             the access control policy and procedure is being updated and would be “ready for review
             and final approval” by the Commissioner in December 2013.

   39
      (U) As defined in NIST SP 800-53A, “Guide for Assessing the Security Controls in Federal Information
   Systems,” July 2008, Media Access Control addresses are hardware addresses that “uniquely identify each
   component of an IEEE [Institute of Electrical and Electronics Engineers] 802-based network.”
   40
      (U) NIST SP 800-53, rev. 3, AC-18 “Wireless Access,” Aug. 2009 (last updated May 2010).

                                                         22

                                     SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that IBWC has
       finalized and implemented remote access policy and procedure as required.

       (SBU) Recommendation 16. OIG recommends that the Chief Information Officer
       implement remote access controls that is enforced (b) (5)



       (SBU) Management Response: IBWC concurred with the recommendation, stating that
       a “solution to address the lack of full disk encryption on all IBWC issued laptops was
       purchased in FY 2012.” IBWC further stated that it is conducting a “complete inventory
       and recall of all laptops” that will require the return of all laptops to headquarters for
       software implementation and update. (b) (5)



       (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
       can be closed when OIG reviews and approves documentation showing that IBWC has
       implemented remote access controls enforced (b) (5)


       (U) Recommendation 17. OIG recommends that the Chief Information Officer develop
       and implement a wireless policy and procedures, as required by National Institute of
       Standards and Technology Special Publication SP 800-53, Revision 3.

       (U) Management Response. IBWC concurred with the recommendation, stating that
       IMD would “include wireless policy and procedures in the existing update” to access
       control policy and procedure to address usage restrictions, access procedures,
       authorization monitors, and compliance requirements for wireless access and connections
       to the GSS. IBWC further stated that only one wireless access point exists within IBWC
       headquarters and that existing documentation has been updated.

       (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that IBWC has
       developed and implemented a wireless policy and procedure as required.

H. (U) Identity and Access Management
       (U) OIG identified three areas of weakness in the identity and access management
process; using e-authentication process, monitoring IT personnel with privileged permissions,
and obtaining signed Rules of Behaviors agreements from information systems users.




                                               23

                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(U) Using the E-authentication Process

        (SBU) E-authentication is the process of establishing confidence in the identities of users
attempting to electronically access an information system. 41 Although IBWC had implemented
Identification and Authentication Policy and Procedure, OIG found that the policy had not been
reviewed or updated since 2009.

       (U) OMB Memorandum M-04-04 42 identifies a five-step process by which agencies
should meet their e-authentication assurance requirements:

     •   (U) Conduct a risk assessment of the government system.
     •   (U) Map identified risks to the appropriate assurance level.
     •   (U) Select technology based on e-authentication technical guidance.
     •   (U) Validate that the implemented system has met the required assurance level.
     •   (U) Periodically reassess the system to determine technology refresh requirements.

   (U) In addition, NIST SP 800-53, Revision 3, 43 states that organizations should review and
update the following:

         a. (U) A formal, documented identification and authentication policy that addresses
            purpose, scope, roles, responsibilities, management commitment, coordination among
            organizational entities, and compliance; and
         b. (U) Formal, documented procedures to facilitate the implementation of the
            identification and authentication policy and associated identification and
            authentication controls.

        (SBU) OIG determined that personal identity verification cards had been configured to
the network prior to any testing or assessment performed, as required by OMB Memorandum
M-04-04, 44 and individuals had the ability and had been using their personal identity verification
cards to access the network. However, an IBWC official stated that no formal risk assessment
was performed prior to the implementation of the personal identity verification card because
IBWC was not aware that a risk assessment was required. Without an effective e-authentication
process, the control designed to identify systems users’ identities could be compromised.

(U) Monitoring Information Technology Personnel With Privileged Permissions

      (SBU) IBWC possesses the capability of tracking and logging administrative activities;
however, OIG found that IBWC did not have a formal process in place for tracking and




41
   (U) OMB Memorandum M-04-04, “E-Authentication Guidance for Federal Agencies,” Dec. 16, 2003.
42
   (U) Ibid.
43
   (U) NIST SP 800-53, rev. 3, IA-1 “Identification and Authentication Policy and Procedures,” Aug. 2009 (last
updated May 2010).
44
   (U) OMB Memorandum M-04-04, Dec. 16, 2003.

                                                        24

                                  SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

monitoring users with privileged role assignments and that management had not established a
process for monitoring users with privileged permissions. NIST SP 800-53, Revision 3, 45 states:

           (U) The organization employs the concept of least privilege, allowing only
           authorized accesses for users (and processes acting on behalf of users) which are
           necessary to accomplish assigned tasks in accordance with organizational
           missions and business functions. The organization requires that users of
           information system accounts, or roles, with access to [Assignment: organization-
           defined list of security functions or security-relevant information], use non-
           privileged accounts, or roles, when accessing other system functions, and if
           feasible, audits any use of privileged accounts, or roles, for such functions.

       (U) When users with privileged permissions are not monitored, unauthorized activities
could harm the IBWC information assets and adversely affect the confidentiality, integrity and
availability of data.

(U) Obtaining Signed Rules of Behavior Agreements From Information Systems Users

        (U) OIG found that IMD had generated a network account and temporary password prior
to user application for network access. IBWC officials stated that users did not receive login
credentials until Rules of Behavior agreements had been signed by the users and Information
Systems Security Officer. OIG found that four (33 percent) of 12 (100 percent of new users for
the audit period) Rules of Behavior agreements were not signed by the Information System
Security Officer. NIST SP 800-53 46 requires users to read and sign Rules of Behavior
documents. The Information System Security Officer stated he was not available to sign the four
Rules of Behavior documents identified by OIG as lacking appropriate signature.

           (U) Recommendation 18. OIG recommends that the Chief Information Officer update
           and implement identification and authentication management procedures to include the e-
           authentication procedures, as required by National Institute of Standards and Technology
           Special Publication 800-53, Revision 3.

           (U) Management Response: IBWC concurred with the recommendation, stating that
           IMD was updating the existing identification and authentication policy and procedure to
           comply with new IBWC directives and include specific language and procedures that
           would require verification of users’ signatures by ISSOs on all Rules of Behavior
           documents before initial user credentials are issued.

           (U) OIG Reply: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and approves documentation showing that IBWC has
           updated and implemented identification and authentication management procedures to
           include e-authentication procedures as required.


45
     (U) NIST SP 800-53, rev. 3, AC-6 “Least Privilege,” Aug. 2009 (last updated May 2010).
46
     (U) NIST SP 800-53, rev. 3, PL-4 “Rules of Behavior,” Aug. 2009 (last updated May 2010).

                                                         25

                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

          (U) Recommendation 19. OIG recommends that the Chief Information Officer perform
          a risk assessment identifying the risks to system security, as required by the Office of
          Management and Budget Memorandum M-04-04.

          (U) Management Response: IBWC concurred with the recommendation, stating that
          IMD was creating documentation on required risk assessments and testing before
          implementing any new technology or access to services required by the agency.

          (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
          can be closed when OIG reviews and approves documentation showing that IBWC has
          performed a risk assessment identifying the risks to system security as required.

  I. (U) Continuous Monitoring
        (SBU) As reported by OIG for FY 2011, IBWC had not fully implemented a continuous
  monitoring program for its IT systems. During the FY 2012 audit, OIG identified three
  weaknesses in the IBWC continuous monitoring process: (b) (5)

                                              An IBWC official stated that there are no documented
  policies and procedures detailing the strategy and plans for conducting continuous monitoring
  activities that include routine vulnerability scanning, log monitoring, and notification of
  unauthorized devices due to limited resources.

  (U) Formal Continuous Monitoring Process

         (SBU) OIG determined that IBWC had assessed and installed a vulnerability
  management tool designed to perform automated routine security assessments of its system
  environment to address this deficiency. (b) (5)




(b) (5)




                                                 26

                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

        (U) NIST SP 800-53, Revision 3, 47 states:

        (U) The organization subsequently initiates specific follow-on actions as part of a
        comprehensive continuous monitoring program. The continuous monitoring
        program includes an ongoing assessment of security control effectiveness to
        determine if there is a need to modify or update the current deployed set of
        security controls based on changes in the information system or its environment
        of operation. In particular, the organization revisits on a regular basis, the risk
        management activities described in the Risk Management Framework. In
        addition to the ongoing activities associated with the implementation of the Risk
        Management Framework, there are certain events which can trigger the
        immediate need to assess the security state of the information system and if
        required, modify or update the current security controls.

(U) When such events occur, organizations, at a minimum, should take the following
actions:

        •    (U) Reconfirm the security category and impact level of the information
             system.
        •    (U) Assess the current security state of the information system and the risk to
             organizational operations and assets, individuals, other organizations, and the
             Nation.
        •    (U) Plan for and initiate any necessary corrective actions.

        (U) After the security controls and/or control upgrades have been implemented
        and any other weaknesses or deficiencies corrected, the controls are assessed for
        effectiveness to determine if the controls are implemented correctly, operating as
        intended, and producing the desired outcome with respect to meeting the security
        requirements for the information system. If necessary, the security plan is
        updated to reflect any additional corrective actions taken by the organization to
        mitigate risk. 48

        (U) Further, the NIST publication defines security assessment requirements to
include the establishment, implementation, maintenance, and reporting of a continuous
monitoring program for information systems. Additional NIST guidance outlines
monitoring and detection requirements in accordance with applicable legislation,
regulations, and executive policy. 49

        (U) NIST SP 800-53, Revision 3, 50 states that the organization “scans for vulnerabilities
in the information system and hosted applications [Assignment: organization-defined frequency


47
   (U) NIST SP 800-53, rev. 3, sec. 3.4 “Monitoring Security Controls,” Aug. 2009 (last updated May 2010).
48
   (U) Ibid.
49
   (U) NIST SP 800-53, rev. 3, SI-4 “Information System Monitoring,” Aug. 2009 (last updated May 2010).
50
   (U) NIST SP 800-53, rev. 3, RA-5 “Vulnerability Scanning,” Aug. 2009 (last updated May 2010).

                                                       27

                                  SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

and/or randomly in accordance with organization-defined process] and when new vulnerabilities
potentially affecting the system/applications are identified and reported.”

        (U) Without periodic reviews or the performance of risk-based security assessments, new
threats and vulnerabilities may not be identified and mitigated in a timely manner, potentially
causing damage or disruption to IBWC information systems.

(U) Vulnerability Scan Results

        (SBU) OIG determined that identified vulnerabilities had not been included
within the POA&Ms tracking database and that the firewall logs had not been reviewed.
Also, IBWC had not performed the Security Test and Evaluations necessary to verify
compliance with its security policy guidelines and to evaluate the effectiveness of the
security controls against anticipated threats for GSS, GIS, and the SCADA systems. The
Information Systems Security Officer had not provided the scan results to the IBWC
official responsible for maintaining the POA&M database because of unfamiliarity with
the process. OMB Memorandum M-08-21 51 states:

        (U) POA&Ms must include all security weaknesses found during any other
        review done by, for, or on behalf of the agency, including [Government
        Accountability Office] audits, financial system audits, and critical infrastructure
        vulnerability assessments. These plans should be the authoritative agency-wide
        management tool, inclusive of all evaluations.

         (U) When vulnerabilities were not reported to the POA&M database, IBWC did
not have an effective process to determine corrective action and security risk exposure.
(Additional details are addressed in Finding F – Plans of Action and Milestones of this
report.)

(U) Supervisory Control and Data Acquisition Systems Monitoring Processes

        (SBU) In addition to apparent challenges in performing automated vulnerability scans
and reviews, OIG found that the SCADA control centers at the San Diego wastewater treatment
plant are not effectively monitored to identify and mitigate security incidents. An IBWC
contractor stated that screens had not always been monitored for incidents such as alarms despite
the fact that SCADA systems are designed to collect field information, transfer information to a
central computer facility, and display, graphically or textually, information, allowing operators to
monitor or control an entire system from a central location in real time. NIST SP 800-53 states
that personnel are required to report suspected security incidents to the organizational incident
response capability and to report “security incident information to designated authorities” within
an acceptable timeframe defined by the organization. 52 Without regular security monitoring,
incidents could go unnoticed, potentially leading to additional damage and/or disruption. IBWC

51
   (U) OMB Memorandum M-08-21, “FY 2008 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management,” dated July 14, 2008.
52
   (U) NIST SP 800-53, rev. 3, IR-6 “Incident Reporting,” Aug. 2009 (last updated May 2010).

                                                    28

                                SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

also needed to conduct regular security monitoring to identify problems with security controls,
such as misconfigurations and failures.

           (SBU) Recommendation 20. OIG recommends that the Chief Information Officer
           develop and implement policies and procedures to perform continuous monitoring to
           include automated routine vulnerability assessments for the General Support System, the
           Geographical Information System, and the Supervisory Control and Data Acquisition
           systems. The results of such security assessments should be reviewed, and Plans of
           Action and Milestones should be developed for the improvement of the security controls
           of major systems, as required by National Institute of Standards and Technology Special
           Publication 800-53, Revision 3.

           (SBU) Management Response: IBWC concurred with the recommendation, stating that
           IMD was developing policies and procedures to assist in the full implementation of an
           effective continuous monitoring program for its IT systems and that IMD had received
           approval for a permanent, part-time employee whose main responsibility would be “many
           of the tasks required to maintain a continuous monitoring program.”

           (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
           can be closed when OIG reviews and approves documentation showing that IBWC has
           developed and implemented policies and procedures to perform continuous monitoring to
           include automated routine vulnerability assessments for the systems specified. The
           results of such security assessments should be reviewed, and POA&Ms should be
           developed for the improvement of the security controls of major systems as required.

J. (U) Contingency Planning
        (U) As reported by OIG for FY 2011, IBWC’s contingency planning process required
significant improvements. An effective contingency planning program is “designed to mitigate
the risk of system and service unavailability by providing effective and efficient solutions to
enhance system availability.” 53 NIST SP 800-34, Revision 1, 54 states that information systems
are “vital elements” in most business functions and that “it is critical” that the services provided
by these systems be able to operate effectively without excessive interruption. NIST guidance
further states, “Contingency planning supports this requirement by establishing thorough plans,
procedures, and technical measures that can enable a system to be recovered as quickly and
effectively as possible following a service disruption. Although IBWC had documented a
contingency plan for the GSS and had configured an automated back-up process for the
headquarters and field offices, OIG identified the following deficiencies:
     (b) (5)




53
   (U) NIST SP 800-34, rev. 1, “Contingency Planning Guide for Federal Information Systems,” ch. 2 –
“Background,” May 2010.
54
   (U) NIST SP 800-34, rev. 1, ch. 1 – “Introduction,” May 2010.

                                                       29

                                  SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED
      (b) (5)




                 (U) IBWC is required by NIST SP 800-34 55 to have a collection of plans to prepare for
          response, continuity, recovery, and resumption of mission and/or business processes and
          information systems in the event of a disruption. OIG determined that a Business Impact
          Assessment, which helps to identify and prioritize critical IT systems and components, had not
          been performed. IBWC management stated that limited resources had prevented them from
          completing the contingency planning documentation. Without a Business Impact Assessment,
          IBWC could not identify the critical Business Processes of IBWC to generate a proper Business
          Continuity/Recovery Plan.
(b) (5)




          55
             (U) NIST SP 800-34, rev. 1, app. C, “Response to Question 2,” May 2010.
          56
             (U) NIST SP 800-34, rev. 1, ch. 3, “Information System Contingency Planning Process,” May 2010.
          57
             (U) NIST SP 800-82, “Guide to Industrial Control Systems Security (ICS),” sec. 6.2.3.1 “Business Continuity
          Planning,” June 2011.
          58
             (U) NIST SP 800-53, rev. 3, CP-6“Alternate Storage Site,” Aug. 2009 (last updated May 2010).
          59
             (U) According to NIST SP 800-12, “An Introduction to Computer Security – The NIST Handbook,” a hot site is
          “a building already equipped with processing capability and other services and a cold site houses processors that can
          be easily adapted for use.”

                                                                   30

                                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

     (b) (5)




               (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
               can be closed when OIG reviews and approves documentation showing that IBWC has
               developed and implemented contingency planning procedures and conducted testing for
               operational effectiveness of all major systems as required.

               (SBU) Recommendation 22. OIG recommends that the International Boundary and
               Water Commission finalize the continuity of operations site and conduct testing for
               operational effectiveness of all major systems, as required by National Institute of
               Standards and Technology Special Publication 800-34, Revision 1.

               (SBU) Management Response: IBWC concurred with the recommendation, stating that
               IMD had awarded a contract in September “to assist with the implementation of a
               VMWare and Cisco Virtualization solution with Citrix” for secure web access for a
               disaster recovery system at the Las Cruces continuity of operations site. IBWC further
               stated that this solution would “serve as a centralized backup of hardware, software, and
               data, which would be shared across all IBWC divisions and accessible by authorized
               IBWC personnel during a disaster recovery.”

               (SBU) OIG Reply: OIG considers the recommendation resolved. The recommendation
               can be closed when OIG reviews and approves documentation showing that IBWC has
               finalized the continuity of operations site and conducted testing for operational
               effectiveness of all major systems as required.

K. (U) Oversight of Contractor System
        (SBU) As reported by OIG for FY 2011, IBWC had not implemented an effective
oversight program for its contractor system. During fieldwork completed in 2012, OIG found
that IBWC’s San Diego field office had not documented policies and procedures for IBWC’s
oversight of systems operated by contractors and had not included the SCADA operations within
IBWC’s IT boundaries. OIG determined that IBWC had not developed policies and procedures
to oversee the San Diego operations and that the field office had relied heavily on contractor-
produced policies and procedures. The contract between IBWC and the contractor required the
contractor to document a SCADA security plan and an IT Security Plan. 60 Although the
SCADA security plan included an explanation of security controls, it did not explain functioning


60
     (U) Contract No. IBM10C0016, “Amendment of Solicitation Commercial Clauses,” Question and Response 3.

                                                      31

                                    SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

controls or planned implementation for the San Diego operation. Also, the security plan did not
address the security controls required by NIST SPs 800-53 61 and 800-82. 62

        (SBU) In addition, IBWC officials did not have adequate control over the IT functions at
the San Diego wastewater treatment plant or the IT assets purchased and maintained by the
contractor in support of operations. An IBWC official stated that the organization was aware of
the deficiencies and was working to address the issues. IBWC is developing a contract
modification with the San Diego contractor to include, but not be limited to, the contractor
notifying IBWC of purchases. Additionally, contractor-owned software was operating on the
local area network at the San Diego wastewater treatment plant without proper review and
approval by IBWC’s IMD.

        (U) Department of Homeland Security FY 2012 Inspector General metrics publication 63
states: Contractor systems should have “documented policies and procedures for information
security oversight of systems operated on the Organization's behalf by contractors or other
entities, including Organization systems and services residing in public cloud.” “Systems that
are owned or operated by contractors or entities, including Organization systems and services
residing in public cloud, are compliant with FISMA requirements, OMB policy, and applicable
NIST guidelines.”

        (SBU) Without adequate contractor oversight, IBWC cannot be assured contractor
personnel are compliant with FISMA, OMB requirements, and NIST standards. Further, because
IMD did not have a review and approval process in place, contractors could purchase IT assets
that may not be in the best interest of IBWC. Finally, without proper oversight, there is an
increased risk that data collected, processed, and maintained is exposed to unauthorized access,
use, disclosure, disruption, modification, or destruction.

        (U) Recommendation 23. OIG recommends that the International Boundary and Water
        Commission ensure that its Information Management Division is responsible for the
        oversight of information technology assets purchased and maintained by the contractor in
        support of operations at the wastewater treatment plant in San Diego, CA, as required by
        National Institute of Standards and Technology Special Publications (SP) 800-53,
        Revision 3, and SP 800-82.

        (SBU) Management Response: IBWC concurred with the recommendation, stating that
        it has established “modifications to existing contracts” with contracted personnel at the
        San Diego wastewater treatment plant and was reviewing upgrade recommendations
        resulting from its onsite assessment in early 2012. IBWC further stated that policy and
        procedure detailing IBWC’s oversight of contractor-operated systems would be created
        and developed for both the San Diego SCADA and Veolia Systems to replace existing
        contractor-developed policy and procedure and that the San Diego SCADA system would

61
   (U) NIST SP 800-53, rev. 3, Aug. 2009 (last updated May 2010).
62
   (U) NIST SP 800-82, “Guide to Industrial Control Systems (ICS) Security,” June 2011.
63
   (U) Department of Homeland Security, “FY2012 Inspector General Federal Information Security Management
Act Reporting Metrics,” sec. 10, “Contractor Systems,” Mar. 6, 2012.

                                                    32

                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       undergo a major upgrade in 2013 to address password and physical access issues and to
       remove the connection between the Veolia and SCADA Systems.

       (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
       be closed when OIG reviews and approves documentation showing that IBWC has
       ensured that IMD is responsible for the oversight of information technology assets
       purchased and maintained by the contractor in support of operations at the San Diego
       wastewater treatment plant as required.

       (U) Recommendation 24. OIG recommends that the International Boundary and Water
       Commission (IBWC) ensure that its Information Management Division reviews and
       approves software prior to installation on IBWC assets, as required by National Institute
       of Standards and Technology Special Publication 800-53, Revision 3.

       (SBU) Management Response: IBWC concurred with the recommendation, stating the
       currently proposed software upgrade of the existing SBIWTP SCADA system is being
       reviewed before it was procured and that this action was “evidence that an approval
       process is in place.” IBWC further stated, “Mods to the existing contract currently reflect
       this change.”

       (SBU) OIG Reply. OIG considers the recommendation resolved. This recommendation
       can be closed when OIG reviews and approves documentation showing that IBWC has
       ensured that its IMD has reviewed and approved software before it is installed on IBWC
       assets as required.

L. (U) Security Capital Planning
        (U) In FY 2011, OIG reported that information security costs were not integrated into
IBWC’s Capital Planning and Investment Control process. During recent audit fieldwork, OIG
found that IBWC still had not provided OMB with a detailed explanation for major investments
related to its projected IT security expenditures. An IBWC official stated that IBWC did not
provide OMB with a detailed explanation of IT security expenses because IBWC is a small
organization and its budget requirements are not large enough to report to OMB. According to
OIG’s FY 2011 report, IBWC had not always considered SCADA systems, valued at $2 million,
as part of its total IT security assets to meet OMB’s reporting threshold. However, another
IBWC official stated that IBWC’s total IT security assets, if SCADA systems are included, are
valued at approximately $2.5 million, well above IBWC’s estimation of OMB’s $2 million
reporting threshold. Further, an IBWC official stated that POA&Ms are currently being used to
identify and incorporate high-priority tasks into the FY 2014 organizational budget request.
However, the POA&M and capital planning request processes differ and are managed by two
different positions, requiring close coordination and integration of the two processes to achieve
accurate and effective requests for IT funding. (Details are addressed in Finding F – Plans of
Action and Milestones of this report)

        (U) IBWC had neither developed the enterprise architecture nor integrated the IT
strategic plan into the budget process as part of the risk management program. Since the

                                               33

                             SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

enterprise architecture and the strategic plan were not considered in the risk management
program, IBWC may not be requesting funding levels appropriate to the risk exposure. As part
of the IBWC capital planning request, an IBWC official stated that the POA&Ms were used to
identify high priority tasks to improve the IT environment.

        (U) To ensure appropriate allocation of resources to meet IT security projected costs,
NIST guidance states that an organization “determines, documents, and allocates the resources
required to protect the information system as part of its capital planning and investment control
process” 64 and “ensures that all capital planning and investment requests include the resources
needed to implement the information security program and documents all exceptions to this
requirement.” To support security investments NIST guidance states that organizations should
use “a business case/Exhibit 300/Exhibit 53 to record the resources required.” 65

       (U) Without effective integration of the POA&M and capital planning request processes
or a well-defined enterprise architecture and IT strategic plan, IT funding prioritizations may be
negatively affected. Inadequate planning increases the risk that requests for IT security funding
investments will not receive proper consideration.

           (U) Recommendation 25. OIG recommends that the Chief Information Officer ensure
           that all information technology assets are accounted for, reported and tracked, and used in
           the calculation and reporting of Exhibit 300/Exhibit 53’s to the Office of Management
           and Budget. Additionally, OIG recommends that International Boundary and Water
           Commission incorporate funding requirements in the information technology strategic
           plan, as required by National Institute of Standards and Technology Special Publication
           800-53, Revision 3.

           (U) Management Response. IBWC concurred with the recommendation, stating that it
           will incorporate costs of IT assets in future budget submissions once all IT assets and
           system inventories are finalized, which is consistent with OMB guidance.

           (U) OIG Reply. OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews and approves documentation showing that IBWC has
           ensured that all information technology assets are accounted for, reported and tracked,
           and used in the calculation and reporting of Exhibit 300/Exhibit 53’s to OMB.

M. (U) Personnel Security
       (U) IBWC had developed its personnel security program but needs to continue making
improvements to its implementation of the program to address weaknesses reported by OIG in
FY 2011. OIG determined that overall progress had been made toward the implementation of an
effective personnel security program. Specifically, OIG identified that IBWC had developed a
tracking mechanism to maintain and provide the status of employees who have been cleared or


64
     (U) NIST SP 800-53, rev. 3, SA-2 “Allocation of Resources,” Aug. 2009 (last updated May 2010).
65
     (U) NIST SP 800-53, rev. 3, PM-3 “Information Security Resources,” Aug. 2009 (last updated May 2010).

                                                        34

                                    SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

still require suitability investigation. IBWC had also made progress in completing suitability
clearances for employees and contractors.

       (SBU) However, IBWC IMD staff that is responsible for the IT security functions have a
"high- risk” position level and, per IBWC personnel security procedures, should have a higher
level investigation requirement. OIG determined that IT personnel investigation requirements
had been updated from a National Agency Check with Inquiries to Background Investigation
based on IBWC revised personnel security policy and procedure. “National Agency Check and
Inquiries is the basic and minimum investigation required on all new Federal employees. It
consists of a National Agency Check 66 including written inquiries and searches of records
covering specific areas of a person's background during the past 5 years. Those inquiries are sent
to current and past employers, schools attended, references, and local law enforcement
authorities.” “A Background Investigation is a more in-depth version of the Limited Background
Investigation 67 because the personal investigation covers the most recent 5–7 years. This
investigation is required of those going into highest risk public trust positions.”

        (U) OIG identified the following deficiencies:

        •    (SBU) Three of 21 IBWC contractors at the San Diego wastewater treatment plant
             had not obtained their suitability adjudication, and the remaining 18 contractors that
             had received their suitability clearance had not obtained their badges in accordance
             with Homeland Security Presidential Directive 12. 68 Homeland Security Presidential
             Directive 12, Policies for a Common Identification Standard for Federal Employees
             and Contractors, requires background investigations to be conducted on all Federal
             and contractor employees.

        •    (SBU) IBWC had 23 employees with access to the IMD working space. Of the 23,
             only seven are assigned to IMD, and IBWC management determined that six of the
             employees require a higher level background investigation because of their access to
             IBWC systems. IBWC had initiated the process of obtaining the higher level
             investigations for the six employees.

        (U) An IBWC official stated that completing the review process is still ongoing because
of limited resources. Without fully investigating an employee's background followed by the
adjudication process and subsequent clearance, there is a potential that IBWC employs personnel
who are not appropriate for the position to which they have been entrusted. In addition,
employees may be granted inappropriate administrator permissions to access IBWC information

66
   (U) A National Agency Check and Inquiries (NAC) is an integral part of all background investigations; the NAC
consists of searches of Office of Personnel Management's Security/Suitability Investigations Index (SII); the
Defense Clearance and Investigations Index (DCII); the Federal Bureau of Investigation Identification Division's
name and fingerprint files, and other files or indices, as necessary.
67
   (U) A Limited Background Investigation consists of a National Agency Check and Inquiries, credit search,
personal subject interview, and personal interviews by an investigator of subject's background during the most
recent 3 years.
68
   (U) Homeland Security Presidential Directive-12, Policies for a Common Identification Standard for Federal
Employees and Contractors, Aug. 27, 2004

                                                       35

                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

technology and physical assets. This security weakness could also potentially impact the
Department of State (Department) because the Department had placed OpenNet 69 terminals in
IBWC workspaces.

        (U) Recommendation 26. OIG recommends that International Boundary and Water
        Commission finalize its contractors’ suitability clearances, including formal clearance
        adjudication, and issue badges, as required by Homeland Security Presidential Directive
        12.

        (SBU) Management Response. IBWC concurred with the recommendation, stating that
        it had “initiated background investigations” on all 21 contractors, that 16 investigations
        had been “completed and adjudicated,” and that the remaining two investigations “are
        still ‘open’ pending completion of investigative leads.” IBWC further that stated that 11
        contractors had been issued appropriate credentials as required and that the remaining
        contractors “are pending appointments at credentialing centers.”

        (U) OIG Reply. OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and approves documentation showing that IBWC has
        finalized its contractors’ suitability clearances, including formal clearance adjudication,
        and issued badges, as required.

        (U) Recommendation 27. OIG recommends that International Boundary and Water
        Commission ensure that the adjudication process is completed for the information
        technology employees undergoing background investigations.

        (U) Management Response: IBWC concurred with the recommendation, stating that
        background investigations on all IT personnel had been completed.

        (SBU) OIG Reply. OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and approves documentation showing that IBWC has
        ensured that the adjudication process has been completed for the IT employees
        undergoing background investigations.

N. (U) Physical and Environmental Protection
       (SBU) As reported by OIG for FY 2011, physical and environmental protection controls
of organizational assets remained a challenge. IBWC could significantly strengthen physical and
environmental protection of organizational assets by improving physical access controls,
securing SCADA control centers and servers, limiting access to server rooms and equipment,
and addressing environmental protection weaknesses as outlined in NIST guidance. (b) (5)
                                                                                                     (b) (5)




69
  (U) OpenNet is the Department of State’s internal network (intranet), providing access to State-specific Web
pages, e-mail, and other resources. Only authorized personnel who meet 12 FAM 621.1a are allowed access to
OpenNet.

                                                        36

                                   SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

(b) (5)




    (U) Physical Protection Weaknesses

            (SBU) While examining physical access controls, OIG found that IBWC should make
    improvements to protect systems from unauthorized access that could compromise the
    confidentiality, integrity, and availability of data. IBWC had made progress since FY 2011 by
    implementing a manual log process for IBWC San Diego contractors to account for the entry and
    exit of Mexican trucks through the international boundary gate. According to physical access
    authorizations outlined in NIST guidance, 70 organizations should establish, review, and maintain
    current lists of employees and contractors with authorized facility access and administer
    appropriate corresponding credentials.

               (U) Physical Access Devices
(b) (5)




               (U) Proximity Access Cards

           (SBU) The proximity access cards were controlled by the contractors who are located at
    the wastewater treatment plant. (b) (5)




               (U) Remote Gate Devices

           (SBU) The remote gate devices are accessible to the San Diego IBWC employees and
    contractors. (b) (5)

    70
         (U) NIST SP 800-53, rev. 3, PE-2 “Physical Access Authorization,” Aug. 2009 (last updated May 2010).

                                                             37

                                        SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

(b) (5)




             (U) According to NIST SP 800-53, Revision 3, 71 “the organization develops and keeps
     current a list of personnel with authorized access to the facility where the information system
     resides (except for those areas within the facility officially designated as publicly accessible),
     issues authorization credentials, reviews and approves the access list and authorization
     credentials [Assignment: organization-defined frequency], removing from the access list
     personnel no longer requiring access.” Without proper accountability for and record of remote
     gate devices, there is an increased risk that the devices could be used for purposes other than
     work related access to the San Diego wastewater treatment. An IBWC official stated that IBWC
     was aware of the risks associated with the number of individuals with proximity cards or remote
     gate devices and was in the process of identifying corrective actions to mitigate the risk.

             (U) Supervisory Control and Data Acquisition Control Centers and Servers

            (SBU) OIG found that IBWC did not enforce physical access authorizations to the
     information system independent of the physical access controls for the facility. Although there
     were physical access controls in place at the wastewater treatment plant, (b) (5)
 (b) (5)




     71
        (U) NIST SP 800-53, rev. 3, PE-2.
     72
        (U) According to NIST SP 800-82, “Guide to Industrial Control Systems (ICS) Security,” June 2011, “A SCADA
     control center performs centralized monitoring and control for field sites over long-distance communications
     networks, including monitoring alarms and processing status data.”
     73
        (U) According to NIST SP 800-82, a “Programmable Logic Controller is generally used for discrete control for
     specific applications and generally provides regulatory control.”

                                                           38

                                      SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED
(b) (5)




              (U) NIST SP 800-82 74 states:

              •   (U) Restricting physical access to the [Industrial Control System] network and
                  devices. Unauthorized physical access to components could cause serious disruption
                  of the ICS’s functionality. A combination of physical access controls should be used,
                  such as locks, card readers, and/or guards.

              •   (U) Protecting individual ICS components from exploitation. This includes
                  deploying security patches in as expeditious a manner as possible, after testing them
                  under field conditions; disabling all unused ports and services; restricting ICS user
                  privileges to only those that are required for each person’s role; tracking and
                  monitoring audit trails; and using security controls such as antivirus software and file
                  integrity checking software where technically feasible to prevent, deter, detect, and
                  mitigate malware.

             (U) Unauthorized access to network devices and administrative functions could allow a
   user to disrupt Industrial Control Systems operations or monitor Industrial Control Systems
   network activity. Also, access to network equipment should be controlled to prevent damage or
   destruction. In addition, improper access to network equipment could lead to any of the
   following conditions:

              •   (U) Physical theft of data and hardware.
              •   (U) Physical damage or destruction of data and hardware.
              •   (U) Unauthorized changes to the security environment (e.g., altering access control
                  lists to permit attacks to enter a network).
              •   (U) Unauthorized interception and manipulation of network activity.
              •   (U) Disconnection of physical data links or connection of unauthorized data links.

              (U) Server Rooms and Equipment Access

              (U) OIG identified weaknesses in physical controls to the server room (b) (5)
                                                                             at the IBWC’s U. S.
   Section headquarters in El Paso, the IBWC field office in Fort Hancock, and at the San Diego
   wastewater treatment plant. Following OIG recommendations in FY 2011, IBWC had
   implemented a proximity card reader to limit access to authorized personnel to the second floor
   server room in El Paso. The San Diego and the Yuma field offices had installed a cipher lock
   that restricts access to only authorized personnel as well as bolting their server racks to the floor.


   74
        (U) NIST SP 800-82, “Executive Summary,” June 2011.

                                                         39

                                     SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

             (U) OIG observed the following physical control deficiencies:

               •       (U) Third floor equipment room in El Paso and the Fort Hancock field office had
                       not been restricted to authorized personnel.

               •       (U) All IBWC El Paso file server racks were not locked.

               •       (U) IBWC El Paso and the San Diego wastewater treatment plant server racks
                       were not bolted to the floor.

          (U) According to NIST SP 800-53, Revision 3, 75 “the organization develops and keeps
current a list of personnel with authorized access to the facility where the information system
resides (except for those areas within the facility officially designated as publicly accessible),
issues authorization credentials, reviews and approves the access list and authorization
credentials [Assignment: organization-defined frequency], removing, from the access list
personnel no longer requiring access.” An IBWC official stated that no formal physical and
environmental protection plan existed. Without an effective physical protection plan, personnel
may be unaware of risks that could compromise the confidentiality, integrity, and availability of
data.

(U) Environmental Protection Weaknesses

          (U) Environmental protection controls are designed to protect employee safety and IT
assets from damage and destruction. OIG determined that some environmental protections in
place at IBWC offices were insufficient to adequately protect personnel and property.
Specifically, OIG found the following environmental protection weaknesses:

                   •     (U) IBWC San Diego and Yuma field offices had not maintained fire
                         suppression and detection devices sensitive to the water and humidity
                         requirements of electrical equipment. For example, although the Yuma field
                         office had installed a sprinkler system in its server room to combat fire hazards,
                         the resulting water from the sprinkler system, if activated, could damage
                         sensitive electronic equipment.

                   •     (U) The IBWC San Diego field office did not have a way to shut down
                         electricity or provide emergency lighting within the computer area in the event
                         of an emergency, which could result in damage to equipment or injury to
                         personnel.

            (U) NIST SP 800-53, Revision 3, 76 states that “the organization protects power
       equipment and power cabling for the information system from damage and destruction.”
       NIST SP 800-53, Revision 3, also states the following:


75
     (U) NIST SP 800-53, rev. 3, PE-2.
76
     (U) NIST SP 800-53, rev. 3, PE-9 “Power Equipment and Power Cabling,” Aug. 2009 (last updated May 2010).

                                                       40

                                     SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


            •   (U) “The organization provides the capability of shutting off power to the
                information system or individual system components in emergency situations. 77

            •   (U) The organization provides a short-term uninterruptible power supply to
                facilitate an orderly shutdown of the information system in the event of a primary
                power source loss. 78

            •   (U) The organization employs and maintains automatic emergency lighting for the
                information system that activates in the event of a power outage or disruption and
                that covers emergency exits and evacuation routes within the facility. 79

            •   (U) The organization employs and maintains fire suppression and detection
                devices/systems for the information system that are supported by an independent
                energy source.” 80

            (U) An IBWC official stated that no formal physical and environmental protection plan
     existed. Without an effective environmental protection plan, personnel may be unaware of
     risks that could result in injuries to personnel and damage or destruction of IBWC IT assets.

        (U) Recommendation 28. OIG recommends that the International Boundary and Water
        Commission develop and implement chain-of-custody procedures to control access to the
        proximity access cards and remote gate devices along the international border.

        (SBU) Management Response. IBWC concurred with the recommendation, stating that
        the San Diego Field Office Area Operations Manager, “in coordination with the Veolia
        Superintendant,” had implemented an accountability plan that “responds to necessary
        procedures and controls over proximity access cards and remote gate devices” and that
        the policy and procedures had been updated and are being finalized.

        (U) OIG Reply. OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and approves documentation showing that IBWC has
        developed and implemented chain-of-custody procedures to control access to the
        proximity access cards and remote gate devices along the international border.

        (U) Recommendation 29. OIG recommends that the International Boundary and Water
        Commission develop and implement physical access controls to restrict access to the
        Supervisory Control and Data Acquisition control centers, Programmable Logic
        Controller, and file servers, as required by National Institute of Standards and
        Technology Special Publication 800-82.

        (SBU) Management Response. IBWC concurred with the recommendation, stating that
        the current update to the existing SCADA System at the SBIWTP was being evaluated to
77
   (U) NIST SP 800-53, rev. 3, PE-10 “Emergency Shutoff,” Aug. 2009 (last updated May 2010).
78
   (U) NIST SP 800-53, rev. 3, PE-11 “Emergency Power,” Aug. 2009 (last updated May 2010).
79
   (U) NIST SP 800-53, rev. 3, PE-12 “Emergency Lighting,” Aug. 2009 (last updated May 2010).
80
   (U) NIST SP 800-53, rev. 3, PE-13 “Fire Protection,” Aug. 2009 (last updated May 2010).

                                                     41

                                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

ensure that the items specified in the recommendation were addressed, including the
“physical access, deficiencies and requirement of auto-locking screens for PLC and HMI
interfaces throughout the plant.” IBWC stated that it anticipated having the new security
features and updated systems in place by September 2013.

(U) OIG Reply. OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and approves documentation showing that IBWC has
developed and implemented physical access controls to restrict access to the SCADA
control centers, PLC, and file servers as required.

(U) Recommendation 30. OIG recommends that the International Boundary and Water
Commission restrict access to file servers at its San Diego, CA, wastewater treatment
plant, the field offices in Fort Hancock, TX, and its headquarters in El Paso, TX, and
ensure the servers are attached to the floor to prevent damage to equipment or harm to
employees, as required by National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

(SBU) Management Response. IBWC concurred with the recommendation, stating that
the current proposed update to the existing SCADA System at the SBIWTP was being
evaluated to ensure that the items specified in the recommendation are addressed,
including the physical access to servers at the SBWITP. IBWC further stated that a “half
rack” had been installed at the Ft. Hancock office and that this rack restricted access to
network components installed there. IBWC stated that it was finalizing work that would
expand the IBWC LAN room, “providing more sufficient cooling, allow for growth and
address the requirement of having all server racks bolted to the floor to prevent damage
to equipment or harm to employees.”

(U) OIG Reply. OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and approves documentation showing that IBWC has
restricted access to file servers at its San Diego, CA, wastewater treatment plant and the
field offices in Fort Hancock and its headquarters in El Paso and ensures that the servers
are attached to the floor to prevent damage to equipment or harm to employees as
required.

(U) Recommendation 31. OIG recommends that the International Boundary and Water
Commission determine the most cost-effective protective measures to prevent fire and
damage to file servers, as required by National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

(U) Management Response. IBWC concurred with the recommendation, stating that an
assessment of all IBWC server rooms would be conducted in early 2013 “to determine
the most cost-effective protective measures to prevent fire and damage to file servers.”

(U) OIG Reply. OIG considers the recommendation resolved. This recommendation
can be closed when OIG reviews and approves documentation showing that IBWC has


                                        42

                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

determined the most cost-effective protective measures to prevent fire and damage to file
servers as required.




                                       43

                      SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                              (U) List of Recommendations

(U) Recommendation 1. OIG recommends that the Chief Information Officer conduct an
inventory to identify all information technology assets, including Supervisory Control and Data
Acquisition systems for International Boundary and Water Commission.

(U) Recommendation 2. OIG recommends that the Chief Information Officer conduct an
annual inventory of information technology assets and update the full system inventory when
changes are made to those information systems operated by or under the control of the
International Boundary and Water Commission (IBWC) or by third-party contractors or agencies
on behalf of IBWC, as required by the Federal Information Security Management Act.

(U) Recommendation 3. OIG recommends that the Chief Information Officer develop a risk
management strategy, which includes the information technology strategic plan and the
enterprise architecture at the organizational level, for assessing, addressing, and monitoring
information security risks, as required by National Institute of Standards and Technology Special
Publication 800-37, Revision 1.

(U) Recommendation 4. OIG recommends that the Chief Information Officer complete the
security documents and the testing of International Boundary and Water Commission
information technology assets.

(SBU) Recommendation 5. OIG recommends that the Chief Information Officer develop the
security assessment and authorization packages for the Geographic Information System and
Supervisory Control and Data Acquisition systems and update the security assessment and
authorization package for the General Support System, as required by National Institute of
Standards and Technology Special Publication (NIST SP) 800-53, Revision 3 and NIST SP 800-
82.

(U) Recommendation 6. OIG recommends that the Chief Information Officer improve existing
procedures to ensure security assessment and authorization packages, system security plans, and
security assessment reports are updated, as required by National Institute of Standards and
Technology Special Publication (NIST SP) 800-37, Revision 1 and NIST SP 800-53, Revision 3.

(U) Recommendation 7. OIG recommends that the Chief Information Officer ensure that
annual security assessments of a subset of a system’s security controls are conducted, as required
by National Institute of Standards and Technology Special Publication 800-37, Revision 1.

(U) Recommendation 8. OIG recommends the Chief Information Officer develop and
implement configuration management and testing procedures including, but not limited to, patch
management and periodic assessments of compliance with the implemented procedures, as
required by National Institute of Standards and Technology (NIST) Special Publication (SP)
800-53, Revision 3, and NIST SP 800-40, Version 2.0.


                                               44

                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(U) Recommendation 9. OIG recommends that the Chief Information Officer develop and
implement procedures for the oversight of all systems and hardware including, but not limited to,
patch management and periodic assessments of compliance with implemented procedures that
are part of the International Boundary and Water Commission operations, as required by
National Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Recommendation 10. OIG recommends the Chief Information Officer incorporate the
updated incident report template into the incident response and reporting procedures and
periodically assess compliance with the procedures, as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

(U) Recommendation 11. OIG recommends that the Chief Information Officer ensure the
security awareness training policy requiring all International Boundary and Water Commission
personnel to attend initial security awareness training is finalized and then ensure that the
personnel take the training before they are provided access to information technology systems, as
required by National Institute of Standards and Technology Special Publication 800-53, Revision
3, and Office of Management and Budget Circular No. A-130.

(U) Recommendation 12. OIG recommends that the Chief Information Officer ensure all
International Boundary and Water Commission personnel attend security awareness refresher
training and suspend access to information technology systems and assets when personnel fail to
successfully complete the training, as required by National Institute of Standards and
Technology Special Publication SP 800-53, Revision 3, and Office of Management and Budget
Circular No. A-130.

(U) Recommendation 13. OIG recommends that the Chief Information Officer ensure the
specialized security training requirement for International Boundary and Water Commission
personnel with significant security responsibilities is completed so that the personnel are able to
maintain their professional proficiency, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

(U) Recommendation 14. OIG recommends the Chief Information Officer fully implement a
Plan of Action and Milestones process to include vulnerabilities identified from all sources and
update milestone dates, as required by Office of Management and Budget Memorandum M-08-
21 and NIST Special Publication 800-53, Revision 3.

(U) Recommendation 15. OIG recommends that the Chief Information Officer finalize and
implement International Boundary and Water Commission remote access policy and procedure,
as required by National Institute of Standards and Technology Special Publication SP 800-53,
Revision 3.

(SBU) Recommendation 16. OIG recommends that the Chief Information Officer implement
remote access controls that is enforced with two-factor authentication and encryption of data on
mobile devices, as required by the Office of Management and Budget Memorandum M-06-16.



                                                 45

                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

    (U) Recommendation 17. OIG recommends that the Chief Information Officer develop and
    implement a wireless policy and procedures, as required by National Institute of Standards and
    Technology Special Publication SP 800-53, Revision 3.

    (U) Recommendation 18. OIG recommends that the Chief Information Officer update and
    implement identification and authentication management procedures to include the e-
    authentication procedures, as required by National Institute of Standards and Technology Special
    Publication 800-53, Revision 3.

    (U) Recommendation 19. OIG recommends that the Chief Information Officer perform a risk
    assessment identifying the risks to system security, as required by the Office of Management and
    Budget Memorandum M-04-04.

    (SBU) Recommendation 20. OIG recommends that the Chief Information Officer develop and
    implement policies and procedures to perform continuous monitoring to include automated
    routine vulnerability assessments for the General Support System, the Geographical Information
    System, and the Supervisory Control and Data Acquisition systems. The results of such security
    assessments should be reviewed, and Plans of Action and Milestones should be developed for the
    improvement of the security controls of major systems, as required by National Institute of
    Standards and Technology Special Publication 800-53, Revision 3.
(b) (5)




    (SBU) Recommendation 22. OIG recommends that the International Boundary and Water
    Commission finalize the continuity of operations site and conduct testing for operational
    effectiveness of all major systems, as required by National Institute of Standards and Technology
    Special Publication 800-34, Revision 1.

    (U) Recommendation 23. OIG recommends that the International Boundary and Water
    Commission ensure that its Information Management Division is responsible for the oversight of
    information technology assets purchased and maintained by the contractor in support of
    operations at the wastewater treatment plant in San Diego, CA, as required by National Institute
    of Standards and Technology Special Publications (SP) 800-53, Revision 3, and SP 800-82.

    (U) Recommendation 24. OIG recommends that the International Boundary and Water
    Commission (IBWC) ensure that its Information Management Division reviews and approves
    software prior to installation on IBWC assets, as required by National Institute of Standards and
    Technology Special Publication 800-53, Revision 3.

    (U) Recommendation 25. OIG recommends that the Chief Information Officer ensure that all
    information technology assets are accounted for, reported and tracked, and used in the
    calculation and reporting of Exhibit 300/Exhibit 53’s to the Office of Management and Budget.

                                                   46

                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Additionally, OIG recommends that International Boundary and Water Commission incorporate
funding requirements in the information technology strategic plan, as required by National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Recommendation 26. OIG recommends that International Boundary and Water
Commission finalize its contractors’ suitability clearances, including formal clearance
adjudication, and issue badges, as required by Homeland Security Presidential Directive 12.

(U) Recommendation 27. OIG recommends that International Boundary and Water
Commission ensure that the adjudication process is completed for the information technology
employees undergoing background investigations.

(U) Recommendation 28. OIG recommends that the International Boundary and Water
Commission develop and implement chain-of-custody procedures to control access to the
proximity access cards and remote gate devices along the international border.

(U) Recommendation 29. OIG recommends that the International Boundary and Water
Commission develop and implement physical access controls to restrict access to the Supervisory
Control and Data Acquisition control centers, Programmable Logic Controller, and file servers,
as required by National Institute of Standards and Technology Special Publication 800-82.

(U) Recommendation 30. OIG recommends that the International Boundary and Water
Commission restrict access to file servers at its San Diego, CA, wastewater treatment plant, the
field offices in Fort Hancock, TX, and its headquarters in El Paso, TX, and ensure the servers are
attached to the floor to prevent damage to equipment or harm to employees, as required by
National Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Recommendation 31. OIG recommends that the International Boundary and Water
Commission determine the most cost-effective protective measures to prevent fire and damage to
file servers, as required by National Institute of Standards and Technology Special Publication
800-53, Revision 3.




                                               47

                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


                                                                                         (U) Appendix A

                           (U) Objective, Scope, and Methodology

        (U) The objective of this audit was to determine the effectiveness of U.S. Section,
International Boundary and Water Commission (IBWC), information security program and
practices.

        (U) The Federal Information Security Management Act of 2002 (FISMA) requires each
Federal agency to develop, document, and implement an agency-wide program to provide
information security for the information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or another source.
To ensure the adequacy and effectiveness of these controls, FISMA requires the agency’s
inspector general or an independent external auditor to perform annual reviews of the
information security program and to report those results to the Office of Management and
Budget (OMB) and the Department of Homeland Security (DHS). 1 DHS uses this data to assist
in oversight responsibilities and to prepare its annual report to Congress regarding agency
compliance with FISMA.

        (U) To fulfill its responsibilities required by FISMA, the Office of Inspector General
(OIG), Office of Audits, conducted fieldwork at the El Paso, TX, headquarters; the San Diego,
CA, Yuma, AZ, and Fort Hancock, TX, field offices; and the continuity of operations site at Las
Cruces, NM, to evaluate the IBWC information technology (IT) security program and practices
and to determine the effectiveness of the program for FY 2012. OIG interviewed IBWC senior
management, employees, and contractors and evaluated managerial effectiveness and operational
controls. OIG observed daily operations and obtained evidence to support OIG conclusions and
recommendations and collected written documents to augment observations and interviews.

        (U) OIG conducted its audit from April 2012 through July 2012 and its fieldwork from
April 2012 through June 2012. In addition, OIG performed the audit in accordance with
generally accepted government auditing standards (GAGAS) and in accordance with FISMA,
OMB, and National Institute of Standards and Technology Special Publication guidance.
GAGAS requires an audit to be planned and performed to obtain sufficient, appropriate evidence
to provide a reasonable basis for its findings and conclusions based on the audit objective. OIG
believes that the evidence obtained provides a reasonable basis for its findings and conclusions
based on the audit objective.

        (U) OIG discussed its findings with and proposed recommendations with to IBWC
officials on August 23, 2012. Additionally, an interim discussion was conducted with IBWC
Information Management Division personnel.



1
 (U) OMB Memorandum M-10-28, “Clarifying Cybersecurity Responsibilities and Activities of the Executive
Office of the President and the Department of Homeland Security (DHS), July 6, 2010.

                                                    48

                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


(U) Work Related to Internal Controls

        (U) OIG assessed the adequacy of internal controls by performing manual assessments of
internal controls related to the areas audited through which OIG gained an understanding of the
effectiveness of IBWC’s FISMA mandated information security program. OIG identified and
discussed exceptions with IBWC officials to better understand the reasons behind internal
control challenges. Through conversations with IBWC officials, OIG gained an understanding
of the policies and procedures related to IBWC’s information security program. OIG learned
how IBWC oversees the development of an information security program to protect information
and information systems, to report timely results regarding the security posture of information
and information systems, and to implement corrective measures to address previously identified
FISMA findings and recommendations. OIG’s conclusions on the internal control deficiencies
identified during this audit are detailed in the “Audit Results” section of this report.

(U) Use of Computer-Processed Data and Data Reliability

        (U) The audit team used computer-generated data from IBWC during this audit. To
assess the reliability of computer-processed data, OIG reviewed electronic documentation related
to IT personnel investigation requirements and performed tracing of data to source
documentation. Specifically, OIG obtained and reviewed personnel security policies with
members of the Information Management Division (IMD) to identify the IBWC staff responsible
for IT security functions requiring background investigations. OIG determined that the data
were sufficiently reliable to support the conclusions and recommendations of this report.




                                              49

                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                                                                            (U) Appendix B

                        (U) Office of Inspector General
          FY 2011 Federal Information Security Management Act Report
                          Statuses of Recommendations
        (U) The FY 2011 Federal Information Security Management Act (FISMA) evaluation
was conducted by the Department of State, Office of Inspector General (OIG), Office of Audits,
and contained 21 recommendations. 1 The audit team reviewed remedial actions implemented by
U. S. Section International Boundary and Water Commission (IBWC) management to respond to
the findings identified in the OIG FY 2011 FISMA report. Below is the current status of each
recommendation:

(U) Recommendation 1. OIG recommends that the Chief Information Officer ensure that all
assets are accounted for in the inventory system and develop a process that updates, not less than
annually, the International Boundary and Water Commission’s (IBWC) system inventory when
changes are made to those information systems operated by or under the control of IBWC or by
third-party contractors or agencies on behalf of IBWC, as required by the Federal Information
Security Management Act.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendations 1 and 2
(Finding A) in the FY 2012 report.

(U) Recommendation 2. OIG recommends that the Chief Information Officer improve the risk
management strategy at the organizational level for assessing, responding to, and monitoring
information security risk, as required in National Institute of Standards and Technology Special
Publication 800-37, Revision 1.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 3 (Finding
B) in the FY 2012 report.

(U) Recommendation 3. OIG recommends that the Chief Information Officer:

    • (SBU) Develop the security assessment and authorization packages for the Supervisory
      Control and Data Acquisition systems as required by National Institute of Standards and
      Technology Special Publication (NIST SP) 800-82 and NIST SP 800-53, Revision 3.
    • (U) Improve existing procedures to ensure security assessment and authorization
      packages are updated every 3 years or when a significant change occurs, as required by
      NIST SP 800-37, Revision 1.
    • (U) Improve existing procedures to ensure system security plans and security assessment
      reports are updated as required to comply with the security baseline controls in NIST SP
      800-53, Revision 3.

1
 (U) Evaluation of the United States Section, International Boundary and Water Commission, Information Security
Program (AUD/IT-12-16, November 2011).

                                                      50

                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


   • (SBU) Perform annual security assessments of a subset of a system’s security controls, as
       required by NIST SP 800-37, Revision 1.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendations 4 - 7
(Finding B) in the FY 2012 report.

(SBU) Recommendation 4. OIG recommends the Chief Information Officer develop and
implement security configuration management procedures and periodically assess compliance
with the implemented procedures, as required by National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 8 (Finding
C) in the FY 2012 report.

(U) Recommendation 5. OIG recommends that the Chief Information Officer develop
procedures for the oversight of all systems and hardware that are part of the International
Boundary and Water Commission operations, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 9 (Finding
C) in the FY 2012 report.

(U) Recommendation 6. OIG recommends that the Chief Information Officer enforce the
security awareness training policy requiring all personnel to attend initial and refresher security
awareness training and enforce consequences of non-compliance for personnel who do not
successfully complete the security awareness training, as required by National Institute of
Standards and Technology Special Publication SP 800-53, Revision 3, and Office of
Management and Budget Circular No. A-130.

(U) Status: Closed January 2012. IBWC’s Information Management Division (IMD) conducted
five information technology (IT) security training classes immediately after the OIG visit in
August 2011, resulting in 235 of 272 employees completing annual IT security training. IBWC
acquired a cloud based training system that will allow for a much more efficient method to
provide IT security training to IBWC personnel.

(U) Recommendation 7. OIG recommends that the Chief Information Officer enforce the
security awareness training requirement for those personnel with significant security
responsibilities, as required by National Institute of Standards and Technology Special
Publication SP 800-53, Revision 3, and Office of Management and Budget Circular No. A-130.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 13
(Finding E) in the FY 2012 report.

(U) Recommendation 8. OIG recommends the Chief Information Officer implement a Plan of
Action and Milestones (POA&M) process and review the quarterly POA&M reports and all



                                                 51

                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

elements of the POA&M, as required by Office of Management and Budget (OMB) M-02-01
and M-08-21.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 14
(Finding F) in the FY 2012 report.

(SBU) Recommendation 9. OIG recommends that the Chief Information Officer develop a
remote access policy and procedure, as required by National Institute of Standards and
Technology Special Publication SP 800-53, Revision 3.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 15
(Finding G) in the FY 2012 report.

(SBU) Recommendation 10. OIG recommends that the Chief Information Officer develop and
implement policies and procedures to perform continuous monitoring to include automated
routine vulnerability assessments for all major systems and general support systems (GSS). The
results of such security assessments should be reviewed, and Plans of Action and Milestones
should be developed for the improvement of the security controls of major systems and GSS, as
required by National Institute of Standards and Technology Special Publications 800-53,
Revision 3, and 800-53A.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 20
(Finding I) in the FY 2012 report.

(SBU) Recommendation 11. OIG recommends that the International Boundary and Water
Commission finalize the Continuity of Operations site and conduct testing for operational
effectiveness, as required by National Institute of Standards and Technology Special Publication
800-34, Revision 1.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 22
(Finding J) in the FY 2012 report.

(SBU) Recommendation 12. OIG recommends that the International Boundary and Water
Commission identify an off-site backup for its field offices in Nogales, AZ, San Diego, CA, and
Yuma, AZ as required by National Institute of Standards and Technology Special Publication
800-34, Revision 1.

(U) Status: Closed April 2012. IBWC acquired the needed client to allow for the full offsite
backup of all field offices.

(U) Recommendation 13. OIG recommends that the International Boundary and Water
Commission ensure that its Information Management Division is involved in the oversight of
information technology assets purchased and maintained by the contractor in support of
operations at the waste treatment plant in San Diego, CA, as required by National Institute of
Standards and Technology Special Publications 800-53, Revision 3, and 800-82 and with Office
of Management and Budget M-11-33.


                                               52

                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 23
(Finding K) in the FY 2012 report.

(SBU) Recommendation 14. OIG recommends that International Boundary and Water
Commission (IBWC) ensure that its Information Management Division reviews and approves
software prior to installation on IBWC assets, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3, and Office of Management and Budget M-
11-33.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 24
(Finding K) in the FY 2012 report.

(U) Recommendation 15. OIG recommends that the Chief Information Officer ensure that all
funding for information technology (IT) security investments and IT components is tracked as
required by Office of Management and Budget M-11-33.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 25
(Finding L) in the FY 2012 report.

(U) Recommendation 16. OIG recommends that International Boundary and Water
Commission (IBWC) devote attention and resources to ensure that all IBWC employees and
contractors undergo background investigations and formal clearance adjudication, as required by
Homeland Security Presidential Directive 12.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 26 and 27
(Finding M) in the FY 2012 report.

(SBU) Recommendation 17. OIG recommends that the International Boundary and Water
Commission develop and implement chain-of-custody procedures to control access to and use of
remote gate devices along the international border.

(U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 28
(Finding N) in the FY 2012 report.

(SBU) Recommendation 18. OIG recommends that the International Boundary and Water
Commission (IBWC) collaborate with the Department of Homeland Security to ensure that
IBWC-sponsored entry into the United States is appropriately inspected by U.S. Customs and
Border Protection.

(U) Status: Closed April 2012. IBWC entered into an agreement with the U.S. Customs and
Border Protection, a component of the Department of Homeland Security, detailing the
inspection actions by U.S. Customs and Border Protection of IBWC-sponsored entry.

(U) Recommendation 19. OIG recommends that the International Boundary and Water
Commission implement a process to review, update, and approve the Information Management
Division staff access list to the server room at its office in El Paso, TX as required by National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

                                                53

                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

   (U) Status: Closed April 2012. IBWC reviewed the access to server room and prepared a
   current list of Information Management Division staff that has been granted access.

   (U) Recommendation 20. OIG recommends that the International Boundary and Water
   Commission restrict access to file servers at its San Diego, CA waste treatment plant, the field
   offices in San Diego and Yuma, AZ, and its headquarters in El Paso, TX and ensure the servers
   are attached to the floor to prevent damage to equipment or harm to employees, as required by
   National Institute of Standards and Technology Special Publication 800-53, Revision 3.

   (U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 30
   (Finding N) in the FY 2012 report.
(b) (5)




   (U) Status: Closed from the FY 2011 FISMA report. It has become Recommendation 31
   (Finding N) in the FY 2012 report.




                                                  54

                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                                                                               (U) Appendix C

        (U) International Boundary and Water Commission Response




                             �ATIONAL BOUNDARY AND WATER COMMISSION
                                  UNITED STATES AND MEXICO

onoc:aorntiCO\t•tl2liOfl>a
  UNITIIOSfAfti$!�C:riOfl                         October 30,2012



          Mr. Harold W. Geisel
          United States Department of State
          Deputy Inspector General
          Office of Inspector General
          Washington, D. C. 20520

          Subject: Evaluation ofthe United States Section, International Boundasy and Water
          Commission (IBWC) Information Security Program

          Dear Mr. Geisel:

          We appreciate the opportunity to provide a response to your letter dated October 15, 2012. We
          are pleased to �port that we have made some progress on the closing of recommendations since
          your �nt visit and provide the enclosure detailing our response and status on each of your
          recommendations, along with supporting documentation that we have available.

          We will continue to keep your office posted on our continued pro� towards full
          Implementation ofall recommendations.

          Please advise if you have any questions or if we may be of any assistance.




                                                  J;lL�Edward Drusmo, P. B.
                                                       Commissioner




                                                        55

                                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                                                                        Enclosure

                                OIG Draft Audit Responses
Evaluation o/the United States Section, International Boundary and Water Commission (IBWC)
               In/ormation Security Program (AUDII T-XX-XX, October 20 12)




RECOMMENI>ATION I : O IG recommends that the Chief Information Officer conduct an
inventory to identify all information technology assets, including Supervisory Control and Data
Acquisition systems fo r International Boundary and Water Commi ssion.

(u)   Ma nagement co ncu rs with the finding and recommendation: The Infonnati on
Management Division (lMD) is implementing a comprehensive IT asset inventory to full y
account for all IT assets within the fo llowing systems: GSS (and Major application GIS),
SB IWTP VeoIia, SB IWTP SCADA and Nogales SCADA. The updated inventory accounts for
all assets located in the GSS server room, wiring closets on the 1st and 3rd floor of the HQ
building, Ft. Hancock and Las Cruces, which have been revalidated and are now accurately
accounted for in the IT inventory. The SBIWTP asset inventory has been provided by contractor
representatives and will be validated in 2013. The Nogales SCADA is in the process of being
verified by Nogales personnel after the initial inventory of the System was conducted in April
2012.

*The draft IG report identifies the IBWC 's inventory of systems as four information systems:
GSS , GIS and the SCADA systems in Noga les and South Bay International Wastewater
Treatment Plant (SBIWTP). The IBWC System inventory documentation as documented and
reported however, consists of: GSS (with Major Application GIS), SBIWTP SCADA, SBIWTP
Admin and Nogales SCADA.


RECO MM ENDATION 2: DIG recommends that the Chief Information Officer conduct an
annual inventory of infornlation technology assets and update the full system inventory when
changes are made to those information systems operated by or under the control of the
International Boundary and Water Commission OBWC) or by third-party contractors or agencies
on behalf of IBWC, as required by the Federal Infonnation Security Management Act.

(u)  Management concurs wit h the finding and recommendation: An IBWC System
inventory was completed in 2012 and will be conducting an annual inventory of all four systems
in 2013. The process for conducting these inventories is being developed.


RECOMMENDATION 3: OIG recom mends that the Chi ef In format ion Officer develop a risk
management strdtegy, which includes the information techno logy strategic plan and the enterprise
architecture at the organizational level, for assessing, address ing, and monitoring informat ion
security risks, as required by National Inst itute of Standards and Technology Special Publication
800-37, Revision I.




                                                  56

                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                                                                        Enclosure

                                 OIG Draft Audit Responses
Evaluation of the United States Section, International Boundary and Water Commission (IBWC)
                Information Security Program (AUDIIT-XX-XX, October 20 12)

(U) Management concurs with the finding and recommendation: A draft risk management
framewo rk policy a nd procedure is available in draft form and will be staffed for internal
review by November 30, 2012. The IBWC seeks the assistance of your office - DIG - in
reviewing the documentation to ensure that all requirements are addressed prior to final approval.
The IBWC is currently having a risk assessment/pen test conducted by a third party that wi ll
reveal any potential risks and vulnerabilities present within our GSS. The IMD will use this
information to establish the basis for a renewed Authorization to Operate designation anticipated
to be in place by January 2013.


RECOMMENDATION 4: DIG recommends that the Ch ief Informati on Officer comp lete the
security documents and the testing of International Boundary and Water Comm ission informati on
technology assets.

(S 8 W Management concurs with the finding and recommendation : An updated System
Security Plan is available for review for the GSS system. System Architecture a nd Design
Requirements documentation is available for the GIS Major Application and will be used to
help create the System Security Plan required for it. A SSP will be developed for the GIS system
prior to going into fu ll production. Upgrades to the SBIWTP SCADA and SBIWTP Admi n
systems are being reviewed based on initial site assessments and upon approval and
implementation; SSP's and ST&E's will be developed and conducted respectively for each of
these systems.


RECOMMENDATION 5: DIG recommends that the Chief In formation Officer develop the
security assessment and authorization packages for the Geographic Information System and
Supervisory Control and Data Acquisition systems and update the security assessment and
authorization package for the General Support System, as required by National Institute of
Standards and Techno logy Special Publication (N IST SP) 800-53, Revision 3 and NIST SP 800-
82.

(u) Management concurs with the finding and recommendation : The IMD will develop the
necessary security assessments and authorization packages for the GIS and SCADA systems and
update the GSS authorization package as part of FY 2013 priorities.

RECOMMENDATION 6: DIG recommends that the Chief Information Officer improve
exi sting procedures to ensure security assessment and authorization packages, system security
plans, and security assessment reports are updated, as required by National Institute of Standards
and Technology Special Publication (N IST SP) 800-37, Revision 1 and NIST SP 800-53,
Revision 3.

(U) Managem ent concurs with the finding and recommendation:           The draft Risk
Management Framework documentation under review provides a specific time frame for the

                                                2




                                                    57

                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




                                                                                         Enclosure

                                 OIG Draft Audit Responses
Evaluation of the United States Section, International Boundary and Water Commission (IBWC)
                Information Security Program (AUD/IT- XX-XX, October 2012)

Assessment and Authorization (A&A) processes, as well as the regular update and acceptance of
System Security plans and Security Assessments . The draft documentation also includes the
A&A process, which will be completed every three years or whenever a new Designated
Accrediting Authority (DAA) is assigned.


RECOMMENDATION 7: 010 recommends that the Chief Information Officer ensure that
annual security assessments of a subset of a system's security control s are conducted, as required
by National Institute of Standards and Technology Special Publication 800-37, Revision 1.

(U) Management concurs with the finding and recommendation: The USIBWC is currently
having a risk assessment and pen test conducted on our GSS system. The Scope of Work
provided to the third party security assessment contractor details the work being performed
consistent with National Institute of Standards and Technology Special Publication 800-37,
Revision 1. Results from this assessment will be used to prepare our A&A package, develop
PoA&M's and develop our work plan for 20 13.


RECOMM ENDATION 8: OIG recommends the Chief Information Officer develop and
implement configuration management and testin g procedures including, but not limited to, patch
management and periodic assessments of compliance with the implemented procedures, as
required by National Institute of Standards and Techno logy (N IST) Special Publication (SP)
800-53, Revision 3, and NIST SP 800-40, Version 2.0.

(U) Management concurs with the finding and recommendation: Ex ist ing procedures fo r
patch management are in the process of being documented and tested to include in the existing
CM policy and procedure. We have establi shed the IMD Training room as a viable test
environment to conduct analysis and reviews of configuration changes and patches and anticipate
an approved update to the existing CM po licy by March 20 13.


RECOMMENDATION 9: DIG recommends that the Chief Informati on Officer develop and
implement procedures fo r the oversight of all systems and hardware includ ing, but not limited to,
patch management and periodic assessmcnts of compliance with implemented procedures that
are part of the International Boundary and Water Commission operations, as required by
National Institute of Standards and Technology Special Publi cation 800-53, Revision 3.

( U)Management concurs with the finding and recommendation: The USIBWC will begin
the development of similar CM policy and procedure for all systems that are part of the IBWC
operations to include contractor run and SCADA Systems. We anticipate having draft policy in
place by March 2013.



                                                 3




                                                     58

                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                                                          Enclosure

                                 OIG Draft Audit Responses
Evaluation of the United States Section, International Boundary and Water Commission (IBWC)
                Information Security Program (AUD/IT-XX-XX, October 2012)

RECOMMENDATION 10: OIG recommends the Chief Information Officer incorporate the
updated incident report template into the incident response and reporting procedures and
periodically assess compliance with the procedures, as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

(U)  Management concu rs with the finding and recommendation: The updated incident
report template has been uploaded to the existing draft Incident Response P&P currently being
updated to the new directives format initiated by the IBWC. The draft P&P will be completed,
reviewed and staffed by December 2012 for re-approval by Commissioner.

RECOMMENDATION II : OIG recommends that the Chi ef Information Officer ensure the
security awareness training policy requiring all lnternational Boundary and Water Commission
personnel to attend initial security awareness training is finalized and then ensure that the
personnel take the training before they are provided access to information technology systems, as
required by National Institute of Standards and Technology Special Publication 800-53, Revision
3, and Office of Management and Budget Circular No. A-1 30.

(U)  Management co ncurs with the finding and recommendation : The IMD has updated its
existi ng Security Awa reness Training policy and procedure to include the requirements
described in the recommendation. The policy wi ll be reviewed, reformatted and staffed for
review and sent for approval by December 2013.

Recommendation 12: OIG recommends that the Chief Information Officer ensure all
International Boundary and Water Commission personnel attend security awareness refresher
training and suspend access to information technology systems and assets when personnel fail to
successfully complete the training, as required by National Institute of Standards and
Technology Special Publi cation SP 800-53 , Revision 3, and Office of Management and Budget
Circular No. A-130.

(SBU) Management co ncurs with the finding and recommendation:                 The draft Security
Awareness Training policy and procedure addresses disciplinary and corrective action the IMD
will be authorized to impose on personnel that do not compl y with thi s requirement. For Basic
IT Security T raining: Total of 192 enrolled, 157 completed, 4 are still in progress and 31 have
not started. For those that handle PH : total of67 Enrolled: 61 have completed the training, 4
have not started and 2 are in progress. Notifications have been issued to non-compli ant
employees and their supervisors. One additional notification of network suspension will be
issued for failure to comply with requirement.

Recommendation 13: OIG recommends that the Chie f Information Officer ensure the
specialized security trai ning requirement for International Boundary and Water Commission
personnel with significant security responsi bil ities is completed so that the personnel are able to
maintain their professional proficiency, as required by National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

                                                 4




                                                     59

                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                                                                          Enclosure

                                 OIG Draft Audit Res ponses
Evaluarion ofrhe United States Section, International BoundGfY and Water Commission (IBWC)
               Information Security Program (AUD/IT-XX-XX, October 2012)

(SB U) Management concurs with the finding and recommendation: The updatcd policy and
procedure addresses this requirement and budgetary requirements to ensure the required training
occurs will be allocated on an annual basis. For those with significant IT responsibilities: 7 out
of 7 have completed training.


Reco mm enda tion 14: OIG recommends the Chi ef Infonnation Officer fu lly implement a Plan
of Action and Milestones process to include vulnerabili ties identifi ed from all sources and update
milestone dates, as required by Office of Management and Budget Memorandum M-08- 21 and
NIST Special Publication 800-53, Revision 3.

(S BU) Ma nagement concurs with the finding and recomm endation : The IBWC is using its
PoA&M process to develop, maintain and report the IMD work plan and track progress towards
closing each entry. Identified weaknesses and vulnerabilities identified at the conclusion of the
ongoing third party risk assessment and other internal assessments will be entered into the
PoA&M database so necessary resources and manpower are all ocated to address each issue.
Recently discovered vulnerabilities with printers, Video Teleconferenci ng, USB Thumb dri ves
and laptops have been entered as new PoA&Ms recently and are being prioritized and scheduled
for remediation. Regular updates of PoA&Ms were included in this year's employee mid -year
reviews and employees were notified that their regular update and maintenance of the PoA&M
database is now a measurable perfonnance element that will affect their annual rating.


Reco mmendation 15: OIG recommends that the Chief Infonnation Officer finalize and
implement International Boundary and Water Commission remote access policy and procedure,
as required by National Institute of Standards and Technology Special Publication SP 800-53,
Revision 3.

(U) Mana gement concurs with the finding and recommend ation: The Access Control
po licy and procedu re is being updated and will be rcady for review and final approval by
Commissioner in December 2013 . The updates address the additional weaknesses found by the
IG in remote access and wireless devices.


Recomm endation 16: OIG recommends that the Chief Infonnation Officer implement remote
access controls that is enforced with two-factor authentication and encryption of data on mobile
devices, as required by the Office of Management and Budget Memorandum M-06- l6.

(S BU) Ma nagement co ncu rs with the finding and recommendation: A solution to address
the lack of full disk encryption on all IBWC issued laptops was purchased in FYI2 (Lumension).
A complete inventory and recall of all laptops is in the process of being conducted that will
require the return of all laptops to HQ for implementation of this software and complete any
necessary updates. The IMD has also stepped up its recall of all non-encrypted USB thumb
drives and is replacing them with encrypted lronKey thumb drives.
                                                 5




                                                     60

                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



                                                                                       Enclosure

                                  OIG Draft Audit Responses
Evaluation of the United States Section, International Boundary and Water Commission (IBWC)
                InJormation Security Program (AUDIIT-XX-XX, October 2012)


Additionally. laptops that are configured for remote access to the IBWC network via VPN will
be configured with two factor authentication, The inventory of remote users and their remote
access capabilities is being documented. This will allow us to identify all users who are allowed
to use remote access to connect to the IBWC network to include privileged functions.

Recommendation 17: OIG recommends that the Chief Infonnation Officer develop and
implement a wireless policy and procedures, as required by National Institute of Standards and
Technology Special Publi cation SP 800-53, Revision 3.

ill) Management concurs with the finding and recommendation: The IMD will include
wireless policy and procedures in the existing update to the Access Control policy and procedure
that will address usage restrictions, access procedures, monitoring unauthorized wireless access
and enforcing requirements for wireless connections to the GSS. There is one wireless access
point within rBWC HQ and the existing documentation that lists the current authorized devices
has been updated.


Recommend ation 18: OIG recommends that the Chief Infonnation Officer update and
implement identification and authentication management procedures to include the e-
authentication procedures, as required by National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

(u) Management concurs with the finding and recommendation: The IMD is updating the
existing Identification and Authentication policy and procedure to comply with the new IBWC
direct ive fonnat and include specific language and procedures that will require verification of
signatures by ISSO on all Rules of Behavior documents prior to issuing initial user credentials.

Recommen dation 19: DIG recommends that the Chief Infonnation Officer perfonn a risk
assessment identifying the risks to system security, as required by the Office of Management and
Budget Memorandum M-04-04.

(U)  Management concurs with the finding and recommendation: The IMD is currently
creating documentation on required risk assessments and testing pri or to implementation of any
new technology or access to services required by the agency in accordance with OMB
Memorandum M-04-04.

Recommendation 20: OIG recommends that the Chief Information Officer develop and
implement policies and procedures to pcrfonn continuous monitoring to include automated
routine vulnerability assessments fo r the General Support System, the Geographical Infonnation
System, and the Supervisory Control and Data Acqui sition systems. The results of such security
assessments should be reviewed, and Plans of Action and Mil estones should be developed for the


                                                6




                                                    61

                         SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



                                                                                               Enclosure

                                        OIG Draft Audit Responses
      Evaluation of the United States Section, International Boundary and Water Commission (lBWC)
                      Informalion Security Program (AUD/IT-XX-XX, October 2012)

      improvement of the security control s of major systems, as required by National In stitute of
      Standards and Techno logy Special Publication 800-53, Revision 3.

      (SHU) Management concurs with the finding and recommendation: The IMD is in the
      process of developing poli cies and procedures to assist in the fu ll implementation of an effective
      continuous monitori ng program for its IT Systems. The IMD has received approval for a
      permanent, part time empl oyee whose main responsibility will be many of the tasks required to
      maintain a cont inuous monitoring program. Tasks identified include but are not limited to log
      monitoring, vulnerabili ty scanning, detection of unauthorized devices and acting on results of
      vulnerability scans in a timely manner. Additional duties will also include ensuring PoA&M's
      include identified vulnerabilities based on monitoring results, maintaining change control
      management documentation and conducti ng Security Test and Evaluations necessary for all
      IBWC Systems (to include SCADA systems) to ensure regular evaluation of security controls.


(b) (5)




      (SH U) Man agem ent concurs with the finding and recommendation: The IMD is updating
      existing COOP documentation to reflect significant changes to the environment and to enable
      testing of the agency's di saster recovery solution. The US IBWC is also developing a Business
      Impact Assessment to help identify and prioritize critical IT systems and components. A "warm"
      disaster recover site will be implemented and existing backup infrastructure will be used as part
      of the disaster recovery plan and enable the access of backup data directly to IBWC employees.
      Testing of the disaster recovery plan with recently acqui red hardware and software is scheduled
      for May 2013.


      Recommendation 22:           DIG recommends that the I.ntemational Boundary and Water
      Commission finalize the continuity of operations site and conduct testing for operational
      effectiveness of all major systems, as required by National Institute of Standards and Technology
      Special Publication 800-34, Revision l.

      (SBU) Management concurs with the finding and recommendation : In September the IMD
      awarded a contract to assist with the implementation of a VMWare and Cisco Virtualization
      solution with Citrix for secure web access for a Disaster Recovery (DR) system at the Las Cruces
      COOP site. This solution is to serve as a centralized source of backup hardware/software and
      data to be shared across all US IBWC divisions and will enable accessed to authorized US IBWC
      personnel during a disaster recovery.



                                                       7




                                                        62

                                SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                                                       Enclosure

                                 OIG Draft Audit Responses
Eva/uation of the United States Section, International Boundary and Water Commission (IBWC)
                Information Secllrity Program (AUDIIT-XX-XX, October 20 12)

An analysis and needs assessment of the USIBWC network processes, system infrastructure, and
data capacity was completed, which defined the design requirements and framed the solution
options for developing and imp lementing an efficient DR system. The acquired solution will
create an intuitive, interactive web-enabled service to assure data quality and integrity, and
streamline access to the USIBWC DR site.
Implementation of DR system components is expected to be completed by Spring of2013 . Full
Disaster Recovery tests are expected to be completed by May of201 3.


H.ccommcnda tion 23:       OIG recommends that the International Boundary and Water
Commission ensure that its lnfonnation Management Di vision is responsible for the oversight of
infonnation technology assets purchased and maintai ned by the contractor in support of
operations at the wastewater treatment plant in San Diego, CA, as required by National Institute
of Standards and Technology Special Publications (SP) 800-53, Revision 3, and SP 800-82.

(SBU) Management concurs with the finding and recommendation: The IBWC has
established mods to existing contracts with contracted personnel at the SBIWTP and is
currently reviewing upgrade recommendations resulting from our on site assessment in early
2012. There are existing meeting minutes that document their comp liance with the established
approval process required by the IMD prior to the purchase of any technology assets. The
creation of policy and procedures detailing IBWC's oversight of systems operated by the
contractors will be developed for both the SCADA Veolia System to replace the existing
contractor developed policy and procedures. The SCADA system will undergo a major upgrade
in 2013 to implement the security vulnerabilities IMD staff brought to their attention to include
lack of password access to the SCADA system, physical access to SCADA and removing the
connection between the Veo li a and SCADA Systems.


Recommendation 24:           OIG rccommends that the International Boundary and Water
Commission OBWC) ensure that its lnfonnation Management Division reviews and approves
software prior to installation on ISWC assets, as required by National Institute of Standards and
Technology Special Publication 800-53 , Revi sion 3.

(SBU) Management concurs with the finding and recommcndation: The currcntly proposcd
software upgnlde of the existing SBIWTP SCADA system is being reviewed prior to
procurement and is evidence that an approval process is in place. Mods to the existing contract
currentl y reflect this change.


Reco mmendation 25: OIG recommends that the Chief Infonnation Officer ensure that all
information technology assets are accounted for, reported and tracked, and used in the
calculation and reporting of Exhibit 300/Exhibit 53's to the Office of Management and Budget


                                               8




                                                   63

                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                                                          Enclosure

                                 OIG Draft Audit Responses
Evaluation of the United Slates Section, International Boundary and Water Commission (IBWC)
                Information Security Program (AU D/IT-XX-XX , October 201 2)

effectiveness of all major systems, as required by National Institute of Standards and Technology
Special Publication 800-34, Revision 1.

(U) Management concurs with the finding and recommendation: The USIBWC wi ll
incorporate costs of IT assets in future budget submissions once all IT assets and system
inventories are finali zed, consistent with OMB's guidance. Anticipate having this in place for
the FY 2015 budget submission.


Recommendation 26: OIG recomm ends that International Boundary and Water Commi ssion
finalize its contractors' suitability clearances, including fonna l clearance adjudication, and issue
badges, as requircd by Homeland Security Presidential Directive 12.

(SHU) Management concurs with thc find ing and recommendation: The USIBWC has
initiated background investigations on all 21 contractors; 16 investigations have been completed
and adjudicated. The remaining 2 investigations are still "open" pending completion of
investigative leads. Eleven contractors have been issued appropriate credential s lAW HSPD- 12.
The remaining are pending appointments at credcntialing centers.

Recommendation 27: OIG recommends that International Boundary and Watcr Commission
ensure that the adjudication process is completed for the infonnation technology employees
undergoing background investigations.

(U) Management concurs with the finding and recommendation: All IT personnel
background investigations have been completed. Supporting documentation is not available for
submission, but will be prepared to provide evidence during the next FISMA assessment or via
videoconference upon request.

Recommendation 28:         OIG recommends that the International Boundary and Water
Commission develop and impleme nt chain-of-custody procedures to control access to the
proximity access cards and remote gate devices along the international border.

(SHU) Management concurs with the finding and recommendation: The San Diego Field
Office Area Operations Manager has implemented an accountabi lity plan in coordination with
the Veolia Superintendant, which responds to necessary procedures and controls over proximity
access cards and remote gate devices . The Policy & Procedures has been updated and is in the
process of being finalized.

Recommendation 29:          010 recommends that the International Boundary and Water
Commission develop and implement physical access control s to restrict access to the Supervisory
Control and Data Acquisition contro l centers, Programmabl e Logic Controller, and file servers,
as required by National Institute of Standards and Technology Special Publication 800-82.


                                                 9




                                                     64

                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                                                                                        Enclosure

                                 OIG Draft Audit Responses
Evaluation of the United States Section, Interna/ional Boundary and Water Commission (IBWC)
                Information Security Program (AUD/IT-XX-XX, October 20 12)

(SHU) Management concurs with the finding and recommendation : The current update to
the existing SCADA System at the SB IWTP is being evaluated to ensure that the items within
this recommendation are addressed to include the physical access, deficiencies and requirement
of auto-l ocking screens for PLC and HMI interfaces throughout the plant. We anticipate having
the new security features and updated systems in place by September 2013.

Recommendation 30:          DIG recommends that the International Boundary and Water
Conunission restrict access to file servers at its San Diego, CA, wastewater treatment plant, the
field offices in Fort Hancock, TX, and its headquarters in El Paso, TX, and ensure the servers are
attached to the floor to prevent damage to equipment or hann to employees, as required by
National Institute of Standards and Technology Spec ial Publi cation 800-53, Revision 3.

(SHU) Management concurs with the finding and recommendation: The current proposed
update to the ex isting SCADA System at the SBlWTP is being evaluated to ensure that the items
within th is recommendation are addressed to include the physical access to servers at the
SBWlTP. The office at Ft. Hancock has had a half rack delivered and in sta lled restricting
access to network components installed there. The IBWC is currently finali zing a scope of work
that wi ll expand the IBWC LAN room, providing more suffi cient cool ing, allow for growth and
address the req uirement of having all server racks bolted to the floor to prevent damage to
equipment or hann to empl oyees.

Recommendation 30:          DIG recommends that the International Boundary and Water
Commission detennine the most cost-effective protective measures to prevent fire and damage to
file servers, as required by National Institute of Standards and Technology Special Publication
800-53, Revision 3.

(U) MJ.tnagement co ncurs with the finding and recommend ation: An assessment of all
IBWC server rooms will be conducted in early 20 13 to determine the most cost-effective
protective measures to prevent fire and damage to file servers.




                                               10




                                                 65

                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



                       (U) Major Contributors to This Report
(U) Mr. Jerry Rainwaters, Division Director
Information Technology Division,
Office of Audits

(U) Mr. Steve Matthews, Audit Manager
Information Technology Division,
Office of Audits

(U) Ms. Dayo Onafowokan, Auditor-in-Charge
Information Technology Division,
Office of Audits

(U) Ms. Jamie Horvath, Senior Auditor
Information Technology Division,
Office of Audits




                                              66

                            SENSITIVE BUT UNCLASSIFIED
